<html>
<title> - POTENTIAL IMPACTS OF PROPOSED CHANGES TO THE CLEAN WATER ACT JURISDICTIONAL RULE</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





     POTENTIAL IMPACTS OF PROPOSED CHANGES TO THE CLEAN WATER ACT 
                          JURISDICTIONAL RULE

=======================================================================

                                (113-73)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 11, 2014

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

88-239 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001











             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman

DON YOUNG, Alaska                    NICK J. RAHALL, II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         ELEANOR HOLMES NORTON, District of 
JOHN J. DUNCAN, Jr., Tennessee,      Columbia
  Vice Chair                         JERROLD NADLER, New York
JOHN L. MICA, Florida                CORRINE BROWN, Florida
FRANK A. LoBIONDO, New Jersey        EDDIE BERNICE JOHNSON, Texas
GARY G. MILLER, California           ELIJAH E. CUMMINGS, Maryland
SAM GRAVES, Missouri                 RICK LARSEN, Washington
SHELLEY MOORE CAPITO, West Virginia  MICHAEL E. CAPUANO, Massachusetts
CANDICE S. MILLER, Michigan          TIMOTHY H. BISHOP, New York
DUNCAN HUNTER, California            MICHAEL H. MICHAUD, Maine
ERIC A. ``RICK'' CRAWFORD, Arkansas  GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
BLAKE FARENTHOLD, Texas              TIMOTHY J. WALZ, Minnesota
LARRY BUCSHON, Indiana               STEVE COHEN, Tennessee
BOB GIBBS, Ohio                      ALBIO SIRES, New Jersey
PATRICK MEEHAN, Pennsylvania         DONNA F. EDWARDS, Maryland
RICHARD L. HANNA, New York           JOHN GARAMENDI, California
DANIEL WEBSTER, Florida              ANDREE CARSON, Indiana
STEVE SOUTHERLAND, II, Florida       JANICE HAHN, California
JEFF DENHAM, California              RICHARD M. NOLAN, Minnesota
REID J. RIBBLE, Wisconsin            ANN KIRKPATRICK, Arizona
THOMAS MASSIE, Kentucky              DINA TITUS, Nevada
STEVE DAINES, Montana                SEAN PATRICK MALONEY, New York
TOM RICE, South Carolina             ELIZABETH H. ESTY, Connecticut
MARKWAYNE MULLIN, Oklahoma           LOIS FRANKEL, Florida
ROGER WILLIAMS, Texas                CHERI BUSTOS, Illinois
MARK MEADOWS, North Carolina
SCOTT PERRY, Pennsylvania
RODNEY DAVIS, Illinois
MARK SANFORD, South Carolina
DAVID W. JOLLY, Florida

                                  (ii)



            Subcommittee on Water Resources and Environment

                       BOB GIBBS, Ohio, Chairman

DON YOUNG, Alaska                    TIMOTHY H. BISHOP, New York
GARY G. MILLER, California           DONNA F. EDWARDS, Maryland
SHELLEY MOORE CAPITO, West Virginia  JOHN GARAMENDI, California
CANDICE S. MILLER, Michigan          LOIS FRANKEL, Florida
ERIC A. ``RICK'' CRAWFORD,           ELEANOR HOLMES NORTON, District of 
Arkansas,                            Columbia
  Vice Chair                         EDDIE BERNICE JOHNSON, Texas
DANIEL WEBSTER, Florida              GRACE F. NAPOLITANO, California
JEFF DENHAM, California              STEVE COHEN, Tennessee
REID J. RIBBLE, Wisconsin            JANICE HAHN, California
THOMAS MASSIE, Kentucky              RICHARD M. NOLAN, Minnesota
STEVE DAINES, Montana                ANN KIRKPATRICK, Arizona
TOM RICE, South Carolina             DINA TITUS, Nevada
MARKWAYNE MULLIN, Oklahoma           SEAN PATRICK MALONEY, New York
MARK MEADOWS, North Carolina         NICK J. RAHALL, II, West Virginia
RODNEY DAVIS, Illinois                 (Ex Officio)
MARK SANFORD, South Carolina
DAVID W. JOLLY, Florida
BILL SHUSTER, Pennsylvania (Ex 
Officio)

                                 (iii)
















                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                               TESTIMONY
                                Panel 1

Hon. Robert W. Perciasepe, Deputy Administrator, U.S. 
  Environmental Protection Agency................................     7
Hon. Jo-Ellen Darcy, Assistant Secretary of the Army (Civil 
  Works).........................................................     7

                                Panel 2

J.D. Strong, executive director, Oklahoma Water Resources Board, 
  on behalf of the Western Governors' Association and Western 
  States Water Council...........................................    52
Mark T. Pifher, manager, Southern Delivery System, Colorado 
  Springs Utilities, on behalf of the National Water Resources 
  Association and Western Urban Water Coalition..................    52
Warren ``Dusty'' Williams, general manager/chief engineer, 
  Riverside County, California, Flood Control and Water 
  Conservation District, on behalf of the National Association of 
  Counties and the National Association of Flood and Stormwater 
  Management Agencies............................................    52
Bob Stallman, president, American Farm Bureau Federation.........    52
Kevin Kelly, president, Leon Weiner and Associates, Inc., and 
  chairman of the board, National Association of Home Builders...    52
Eric Henry, president, TS Designs, on behalf of the American 
  Sustainable Business Council...................................    52

           PREPARED STATEMENT SUBMITTED BY MEMBER OF CONGRESS

Hon. Sam Graves, of Missouri.....................................    75

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Hon. Robert W. Perciasepe........................................    77
Hon. Jo-Ellen Darcy..............................................    95
J.D. Strong......................................................   106
Mark T. Pifher...................................................   137
Warren ``Dusty'' Williams........................................   148
Bob Stallman.....................................................   157
Kevin Kelly......................................................   177
Eric Henry.......................................................   188

                       SUBMISSIONS FOR THE RECORD

Hon. Donna F. Edwards, a Representative in Congress from the 
  State of Maryland, submission of a letter from the following 
  organizations: American Fly Fishing Trade Association, 
  Backcountry Hunters and Anglers, B.A.S.S., LLC, Berkley 
  Conservation Institute, Bull Moose Sportmen's Alliance, 
  International Federation of Fly Fishers, Izaak Walton League of 
  America, National Wildlife Federation, North American Grouse 
  Partnership, Pheasants Forever, Quail Forever, Snook and 
  Gamefish Foundation, The Nature Conservancy, Theodore Roosevelt 
  Conservation Partnership, and Trout Unlimited, June 3, 2014....    25
Warren ``Dusty'' Williams, general manager/chief engineer, 
  Riverside County, California, Flood Control and Water 
  Conservation District, on behalf of the National Association of 
  Counties and the National Association of Flood and Stormwater 
  Management Agencies, slides accompanying his opening remarks... 58-60
Hon. Robert W. Perciasepe, Deputy Administrator, U.S. 
  Environmental Protection Agency, answers to questions for the 
  record from the following Representatives:

    Hon. Timothy H. Bishop, of New York..........................    87
    Hon. Lois Frankel, of Florida................................    89
    Hon. Grace F. Napolitano, of California......................    91
    Hon. Dina Titus, of Nevada...................................    92
Hon. Jo-Ellen Darcy, Assistant Secretary of the Army (Civil 
  Works):

    Cover letter to Hon. Timothy H. Bishop, a Representative in 
      Congress from the State of New York, accompanying responses 
      to questions for the record................................   102
    Answers to questions for the record from the following 
      Representatives:

        Hon. Grace F. Napolitano, of California..................   104
        Hon. Dina Titus, of Nevada...............................   104
J.D. Strong, written testimony in the capacity of his role as 
  executive director, Oklahoma Water Resources Board.............   129
Eric Henry, president, TS Designs, on behalf of the American 
  Sustainable Business Council, answers to questions for the 
  record from Hon. Timothy H. Bishop, a Representative in 
  Congress from the State of New York............................   191

                        ADDITIONS TO THE RECORD

American Rivers, written testimony of Stacey Detwiler, associate 
  director, clean water supply and government relations..........   193
American Road and Transportation Builders Association, written 
  testimony......................................................   201
Clean Water Action, written testimony of Jennifer Peters, 
  national water campaigns coordinator...........................   205
Colorado Clean Water Coalition, written testimony of Hon. Jack 
  Hilbert, chairman..............................................   208
Frank A. Logoluso Farms, Inc., written testimony of Janie 
  Logoluso, CEO..................................................   214
Healing Our Waters--Great Lakes Coalition, written testimony of 
  Todd Ambs, coalition director..................................   216
International Council of Shopping Centers, written testimony.....   219
Michigan Farm Bureau, written testimony of Laura A. Campbell, 
  manager, Agricultural Ecology Department.......................   221
National Association of Realtors, written testimony..............   223
National Stone, Sand and Gravel Association, written testimony...   239
National Parks Conservation Association, written testimony of 
  Chad W. Lord, senior director, water policy....................   243
National Wildlife Federation, written testimony of Jan Goldman-
  Carter, senior manager, wetlands and water resources; and 
  Daniel Hubbell, water resources and restoration................   247
Natural Resources Defense Council, written testimony of Jon P. 
  Devine, Jr., senior attorney, water program....................   250
Portland Cement Association, written testimony of Cary Cohrs, 
  chairman of the board; and president, American Cement Company, 
  LLC............................................................   253
Portland Cement Association, Ohio cement industry data...........   255
Southern Environmental Law Center, written testimony of Navis A. 
  Bermudez, deputy legislative director..........................   257
Theodore Roosevelt Conservation Partnership, written testimony of 
  Whit Fosburgh, president and CEO...............................   260
Trout Unlimited, written testimony of Steve Moyer, vice president 
  of government affairs..........................................   262
WateReuse Association, written testimony of Melissa L. Meeker, 
  executive director.............................................   265
Waters Advocacy Coalition, written testimony of Deidre G. Duncan.   268

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 
                     POTENTIAL IMPACTS OF PROPOSED
                     CHANGES TO THE CLEAN WATER ACT
                          JURISDICTIONAL RULE

                              ----------                              


                        WEDNESDAY, JUNE 11, 2014

                  House of Representatives,
   Subcommittee on Water Resources and Environment,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 2167, Rayburn House Office Building, Hon. Bob Gibbs 
(Chairman of the subcommittee) presiding.
    Mr. Gibbs. The Subcommittee on Water Resources and 
Environment of the Committee on Transportation and 
Infrastructure will come to order.
    Today we are having a hearing on the impacts of a proposed 
rule by the U.S. EPA and the Army Corps of Engineers on waters 
of the United States.
    A couple housekeeping issues here first. We have received 
numerous requests for written testimony to be submitted to the 
record. I ask for unanimous consent that all written testimony 
be included and the hearing record be kept open for 30 days 
after this hearing in order to accept these and other 
submissions of written testimony.
    Any objection? Hearing none, so ordered.
    Welcome to our first panel. After a couple of opening 
statements, we have the Deputy Administrator of the U.S. EPA 
and the Assistant Secretary of the Army for Civil Works, 
Assistant Secretary Darcy.
    Then after the first panel we will have a second panel of 
six individuals representing various Government entities and 
associations and the challenges that they see with the proposed 
rule and the impacts.
    I yield myself time here to provide an opening statement.
    First of all, I would again like to welcome everybody to 
the hearing today on the potential impacts of proposed changes 
to the Clean Water Act Jurisdiction Rule, which aims to 
redefine the term ``waters of the United States.''
    On April 21st of this year, the EPA and the Army Corps of 
Engineers published a proposed rule in the Federal Register 
that, according to the agencies, would clarify the scope of the 
Federal jurisdiction under the Clean Water Act. After reviewing 
the proposed rule, I have serious concerns about the rule and 
the process the agencies are following to develop it.
    Since 1972, the Clean Water Act has been instrumental in 
dramatically improving the quality of our Nation's waters. 
Fundamentally, to that progress, it has been the Federal-State 
partnership which recognizes that not all waters need to be 
subject to Federal jurisdiction, and that the States should 
have the primary responsibility of regulating waters within 
their individual boundaries.
    However, I am concerned that this rule will undermine the 
Federal-State partnership and erode State authority by granting 
sweeping new Federal jurisdiction to waters never intended for 
regulation under the Clean Water Act, including ditches, 
manmade ponds, flood plains, riparian areas and seasonally wet 
areas.
    In promoting this rule, the agencies are implying to the 
public that massive amounts of wetlands and stream miles are 
not being protected by the States, and that this rule which 
will essentially Federalize all waters is needed to save them. 
However, nothing is further from the truth. States care about 
and protect our waters.
    I also am concerned how the proposed rule misconstrues and 
manipulates the legal standards announced in their SWANCC and 
Rapanos Supreme Court cases, effectively turning those cases 
that placed limits in Clean Water Act jurisdiction into Federal 
justifications for the agencies to expand their assertion of 
Federal authority over all waters nationally.
    The agencies have had an opportunity to develop clear and 
reasonable bright line rules on what is jurisdictional versus 
not, but they instead chose to write many of the provisions in 
the proposed rule vaguely, in order to give Federal regulators 
substantial discretion to claim Federal jurisdiction over 
almost any water or wet area. This is dangerous, because this 
vagueness will leave the regulated community without any 
clarity and certainty as to their regulatory status and will 
leave them exposed to citizens' lawsuits.
    In addition, since many of these jurisdictional decisions 
will be made on a case-by-case basis, as they have stated, and 
this will give the Federal regulators free reign to find 
jurisdiction, this rule, in essence, will establish a 
presumption that all waters are jurisdictional. Thus, the 
burden of proving otherwise will shift to property owners and 
others in the regulated community.
    This rule sets a very high bar for the regulated community 
to overcome. Nevertheless, the agencies continue to claim that 
no new waters will be covered by the rulemaking. The agencies 
cannot, through guidance or rule, change the scope and meaning 
of the Clean Water Act as they are trying to do here. I also am 
troubled that the sequence and timing of the actions of the 
agencies that have been taken to develop this rule are 
undermining the credibility of the rule and the process to 
develop it.
    First, instead of initiating a rulemaking process by 
soliciting input from and developing consensus with the general 
public, scientific communities, the Federal and State resources 
agencies on how to identify the appropriate scope of 
jurisdiction, the agencies rushed ahead on their own and 
developed the draft guidance that would by the agencies' own 
admission increase significantly the scope of the Clean Water 
Act's jurisdiction over more waters and more provisions of the 
act.
    Then after facing substantial bipartisan opposition to the 
expansive new guidance, the Agency proceeded ahead again on 
their own with a rulemaking that is simply based on the 
expansive guidance.
    And to hide the inadequacies of the rulemaking process that 
the agencies have embarked on, EPA decided to develop a so-
called scientific study that is supposed to provide a basis for 
determining the reach of Federal jurisdiction on the Clean 
Water Act.
    It is disturbing that the EPA intentionally precluded from 
the study a review, and discussion of the scientific concepts 
that are highly relevant to determining which waters should be 
subject to the Clean Water Act coverage. The interconnectedness 
of the science and the policy issue here warrants rigorous, 
scientific peer review prior to the ruling's crafting. However, 
instead of waiting until the science study was completed, the 
agencies wrote the rule long before the study's report was peer 
reviewed and finalized.
    The Agency also took steps to hide the regulatory impacts 
of the rulemaking by preparing a fraud economic analysis that 
did not comprehensively assess all the cost and benefits. This 
is very troubling because this rule, if not carefully crafted, 
will have sweeping economic and regulatory implications for the 
entire Nation, by impacting nearly all sectors of the economy, 
threatening jobs, increasing compliance costs, restricting the 
rights of landowners, inviting costly litigation and 
undermining the ability of States and local governments to make 
decisions about their lands and waters. Regulations on the 
Nation's waters can and must be done in a manner that 
responsibly protects the environment without unnecessary and 
costly expansion of the Federal Government.
    Finally, I am pleased to hear the agencies have just 
announced a 91-day extension of the public comment period of 
the proposed rule. However, the agencies should extend the 
comment period on the proposed rule until after the EPA Science 
Advisory Board has completed its review of the science study 
and the study's report is thoroughly vetted to ensure that any 
final rule is based on the final peer reviewed report.
    I look forward to that testimony from our witnesses today, 
and I would recognize Chairman Shuster of the Transportation 
and Infrastructure Committee for any statement or comments he 
may have.
    Mr. Shuster. Thank you, Mr. Chairman.
    The President's public proposed rule, which of course Mr. 
Gibbs did a great job of going through it, will dramatically 
extend the reach of the Federal Government when it comes to 
regulating ponds, ditches and wet areas and I don't believe 
anybody is going to dispute that. I mean, we may attempt to 
hear that today, but that is what is going to happen.
    But this is another example of this administration seeking 
to use executive action, brute force by bypassing Congress, 
ignoring Supreme Court rulings of the past. Unilaterally 
broadening the scope of the Clean Water Act and the Federal 
Government's reach into everyday lives, will adversely effect 
the Nation's economy, threaten jobs, invite costly litigation 
and restrict the rights of landowners, States and local 
governments to make decisions about their own lands.
    This massive Federal jurisdictional grab was the subject of 
failed legislation in the 110th and 111th Congress and I know 
my colleagues over there were in the majority at the time, and 
I hope we can join together to fight back on this. Because once 
again, this is going to be Congress seeding power to the 
executive branch, and if we do that, if we allow this to go 
forward, we will never get that back and I don't care if it is 
a Republican President or a Democratic President, we give it up 
and they will never give it back to us.
    So this is a fight we need to have, and we need to win. In 
the 110th and 111th Congress, it was strong bipartisan support 
to prevent those bills from moving forward, and as I said, the 
administration is now doing an end around Congress to try to 
gain that Federal power expansion through this rulemaking. The 
rule supposedly aims at clarifying water bodies subject to 
Federal jurisdiction under the Clean Water Act, but as I said, 
I am concerned that there is serious flaws in this rule and the 
executive branch will take power away from the Congress.
    Twice this Supreme Court has told the Agency that there are 
limits to the Federal jurisdiction under the Clean Water Act 
and they had gone too far in asserting their authority. Now the 
administration appears to be cherry-picking those Supreme Court 
rulings, picking out language in attempt to gain this expanded 
authority, rather than heeding the directive of the Court.
    It is the responsibility of Congress, not the 
administration, to divide the scope of the jurisdiction under 
the Clean Water Act. This rule will have sweeping economic 
regulatory implications for the entire Nation, and I believe 
that the agencies will be better off correcting the 
deficiencies in this rulemaking and develop a rule that is 
credible, reasonable and consistent with the law.
    Regulation of our Nation's waters must be done in a manner 
that protects the environment without unnecessary and costly 
expansion of the Federal Government. We can continue to protect 
our waters without unreasonable and burdensome regulations on 
our businesses, farmers and families.
    So, again, I have tremendous concern. This is something 
that I know that those of us on our side of the committee are 
going to fight to make sure this doesn't move forward and that 
we as Congress, and I would, again, encourage my Democratic 
colleagues to look at this as a fight between the executive 
branch and the legislative branch. This is our constitutional 
duty, and they are going to take it away from us.
    And I said to you, if this were a public administration, I 
would be saying the same thing and fighting it just as hard. So 
I encourage you all to keep an open mind as we go through this 
and let's fight to keep Congress relevant in this process.
    I yield back.
    Mr. Gibbs. At this time, I recognize the ranking member of 
the full Transportation and Infrastructure Committee, Mr. 
Rahall.
    Mr. Rahall. Thank you very much, Mr. Gibbs. I appreciate 
you as chairman holding this hearing, and I appreciate very 
much our witnesses being with us today on both panels.
    This is an excellent opportunity to examine and question 
the regulations that are pouring out of the Environmental 
Protection Agency. We are told that this latest regulation 
defining waters of the United States, is an attempt to address 
the muddled mess of what waters are subject to the permitting 
processes of the Clean Water Act.
    Certainly, the most recent Supreme Court decisions on the 
matter have only left the question increasingly murky, opening 
a legal void that is begging to be addressed. Unfortunately, 
from all that I have seen and heard to date, this latest 
proposed rule has only further muddied the waters. I have heard 
many times from proponents of this rule that the intention in 
crafting it was to provide certainty, so that businesses and 
individuals before setting off on some undertaking would know 
whether or not they needed to go through the lengthy and 
expensive permitting process.
    On that score, I have to give credit where credit is due. 
This proposal certainly does provide certainty, the certainty 
that if you want to undertake an activity whatsoever that may 
involve so much as a puddle, you must seek a permit. So I 
confess, I am terribly frustrated. I represent a State that has 
been brutally beaten up by the barrage of regulations gushing 
out of the EPA.
    We feel we are under siege from an agency so power hungry 
that it is gobbling up jurisdiction and taking power away from 
our States, away from other Federal agencies, and ultimately, 
away from the people, and any serious person looking at this 
agency would have to question if it has bitten off more than it 
can chew already.
    The EPA likes to cultivate the impression that science and 
pragmatism govern the day and that it is not swayed by 
ideology. But I see it differently. I see an agency that is so 
hard over against coal that it will gloss over the science in 
doing so, and if doing so, helps to stop the construction of 
coal-fired power plants. I see an agency that is so blinded by 
an anti-coal philosophy that it will stonewall efforts to 
provide coal-field residents with modern sewer systems and 
safer water. It is an agency that is willing to block 
construction of a major national highway at huge savings to the 
American taxpayers if it would involve the mining of a little 
coal.
    This committee is right to view this new proposal with 
skepticism. We must look candidly and matter of factly at the 
cost of this latest EPA proposal on the waters of the United 
States and its effects on our jobs, on our economy and on the 
course of our Nation.
    So I thank the chairman for allowing me these opening 
comments, and I thank him again for having this hearing today.
    Mr. Gibbs. Thank you.
    At this time, I recognize my Ranking Member Bishop for any 
comments he may have.
    Mr. Bishop. Thank you very much, Mr. Chairman, and thank 
you for holding today's hearing.
    Let me take a moment to frame out the context of today's 
hearing and try to highlight some of the factors that brought 
us to where we are today. The starting point of all of this was 
Congress' passage of the Clean Water Act in 1972, which was 
approved by a veto override by a 10-to-1 margin over President 
Nixon's veto.
    In that law, the Congress broadly defined the scope of the 
act as the navigable waters, meaning the waters of the United 
States and the territorial seas, and directed the agencies 
before us today to fill in the details. For almost 30 years, 
the agencies' regulatory definition of those terms were the law 
of the land and since enactment of the Clean Water Act, we have 
seen dramatic improvement in the number of water bodies that 
are safe for fishing and swimming, up from one-third of the 
Nation's waters in 1972 to approximately two-thirds of the 
Nation's waters today. I hope we can all agree that is a good 
thing, and I hope we can also all agree that that improvement 
would not have happened were it not for the Clean Water Act.
    Then in 2001, a stakeholder challenged on the act's 
application with respect to an Illinois landfill, resulted in 
the Supreme Court questioning the application of these 
definitions. Later, in 2006, the Supreme Court again questioned 
the application of these rules to two wetlands in the State of 
Michigan. In the latter case, the Rapanos case, Chief Justice 
Roberts wrote that the core and the EPA needed to do a better 
job in defining the scope of the Clean Water Act. So if this 
is, in fact, a conflict between branches of Government, perhaps 
the conflict is between the judicial branch and the executive 
branch.
    This is something that has been attempted by the last two 
administrations. The administration of President George W. Bush 
and the current administration. In 2003, the Bush 
administration initiated a public rulemaking to define the term 
``waters of the United States'' consistent with the rulings of 
the Supreme Court as well as took public comment on whether 
other regulatory definitions on the scope of the Clean Water 
Act jurisdiction also needed clarification.
    In response, several outside stakeholders, including some 
of the groups represented here this morning, recommended that 
the Agency used the rulemaking process as a means of providing 
increased clarity to the, quote, ``hodgepodge of ad hoc and 
inconsistent jurisdictional theories,'' closed quote, as well 
as to define other terms in the regulations including such 
terms as ``tributary'' and ``adjacent.''
    The 2003 rulemaking attempt by the agencies never reached 
its conclusion. Following in the footsteps of the Rapanos 
decision, the Federal agencies released two interpretive 
guidance documents, one in 2007 and a second in 2008, the 
latter of which remains in force today.
    Now, let's fast forward to 2014. The list of stakeholders 
publicly recommending that agencies carry out a rulemaking has 
expanded and now includes groups ranging from the National 
Wildlife Federation to the Waters Advocacy Coalition. In 
response, earlier this year, the administration initiated its 
own rulemaking to do just that, to clarify the scope of the 
Clean Water Act consistent with the parameters laid down by the 
Supreme Court over the years.
    Now, I am not naive enough to expect that the various 
groups following this proposed rule would agree on how to 
clarify the scope of the Clean Water Act or where the bright 
lines of jurisdiction should lie. However, I do believe it is 
reasonable for the agencies to be allowed to continue this open 
process in providing the clarity that these stakeholders have 
demanded over the years.
    If the stakeholders have concerns or recommendations for 
changes to the proposed rule, that is what the public comment 
period was created for, and I strongly encourage all interested 
parties to utilize this open process to make their views known. 
However, I do not support throwing out the entire rulemaking 
process simply because there is disagreement with the initial 
draft.
    Going back to the legal state of play. In the past 30 
years, the Supreme Court has issued three rulings that directly 
address the scope of the Clean Water Act, the Bayview Homes 
case, the SWANCC case and the Rapanos case. Each of these 
decisions outlined a piece of the puzzle for defining the scope 
of the Clean Water Act.
    In the Bayview Homes case, the justice unanimously agreed 
that certain wetlands fell within the protections of the Clean 
Water Act. In the SWANCC decision, the five-to-four majority of 
the Court ruled that the presence of migratory birds on a water 
of the United States could not be the sole basis for 
determining jurisdiction.
    Finally, in Rapanos, the Court issued a four-one-four 
decision where four justices lead by Justice Scalia outlined a 
relatively permanent waters test for determining jurisdiction, 
while Justice Kennedy established a complimentary test, the so-
called significant nexus test for determining jurisdiction, and 
the remaining four justices agreed with the Agency's current 
authorities. These three decisions outline the four corners of 
the Supreme Court's interpretation of the scope of the Clean 
Water Act.
    So in my view, the question becomes, how does the April 
2014 proposed rule compare with tests on the Clean Water Act 
scope as outlined by the Supreme Court? This will be the area 
of questioning that I will focus in on today as this hearing 
progresses. If the stakeholders today suggest a different 
approach, I welcome their input, as well.
    Mr. Chairman, I hope that all involved with today's hearing 
will use this hearing as a learning experience about what this 
rulemaking does, and as important, what it does not do.
    I welcome the witnesses here this morning. I look forward 
to your testimony.
    And I yield back.
    Mr. Gibbs. If any other Members have opening statements, 
they can submit their written testimony for the record.
    At this time, we will recognize our panel 1. We have the 
Honorable Robert Perciasepe, the Deputy Administrator for the 
United States Environmental Protection Agency; and we also have 
the Honorable Jo-Ellen Darcy, who is the Assistant Secretary of 
the Army for Civil Works.
    Mr. Perciasepe, I will recognize you first. The floor is 
yours. Welcome.

 TESTIMONY OF HON. ROBERT W. PERCIASEPE, DEPUTY ADMINISTRATOR, 
U.S. ENVIRONMENTAL PROTECTION AGENCY; AND HON. JO-ELLEN DARCY, 
         ASSISTANT SECRETARY OF THE ARMY (CIVIL WORKS)

    Mr. Perciasepe. Thank you, Mr. Chairman, and Members, 
Ranking Member, thank you so much for inviting us today.
    Mr. Gibbs. Can you pull your mic up a little bit closer?
    Mr. Perciasepe. I apologize. I think we all agree, and I 
have heard this already, that we want clean and safe waters for 
ourselves, our economy, our environment, our children, our 
future. I also want to express my appreciation to my colleague 
and friend, Assistant Secretary of the Army Jo-Ellen Darcy for 
her leadership and commitment to protecting the Nation's 
waters.
    We are undertaking a process to clarify the geographic 
scope of the Clean Water Act and to improve a regulation that 
has been in place for nearly 30 years. The proposed rule will 
help provide families, manufacturers, farmers, sportsmen, 
energy producers and the American people with the clean water 
they depend on.
    The written testimony that I have submitted will provide 
more details about the proposed rule, including the Agency's 
goal to respond to the request from stakeholders across the 
country to make a process of identifying waters protected under 
the Clean Water Act easier to understand, more predictable and 
more consistent with the law and peer-reviewed science. We 
believe this rulemaking will minimize delays, costs, and 
improve predictability, clarity, consistency for everyone who 
may or may not need a Clean Water Act permit.
    I will focus my opening remarks this morning on some of the 
misinformation that exists regarding the potential effects of 
this rule, and I am concerned that incorrect information may 
have the effect of distracting the attention from the legal 
policy and scientific underpinnings of the proposed rule.
    The agencies are meeting with Americans across the country 
including farmers, energy companies, small business, State and 
local governments, sportsmen, developers and many others to 
solicit their comments, because, remember, this is a proposal, 
and to answer their questions about it.
    We are hearing from a public directly and personally about 
how to improve the rule and how to make it most fair, flexible 
and effective for everyone, in addition to providing valuable 
insights to our discussions are also revealing an unfortunate 
pattern of misinformation.
    For example, I have heard in my discussions with 
stakeholders that this regulation will require farmers to get 
permits for their cows to cross a stream; that this legislation 
will make dry washes that carry water only once in a thousand 
years protected under the Clean Water Act; that this rule will 
make entire flood plains subject to the Clean Water Act 
jurisdiction, and I can tell the committee that categorically, 
none of these are correct statements.
    In contrast, here are some of the examples about what the 
proposed rule does and does not do. In adherence with the 
Supreme Court, it would reduce the scope of waters protected 
under the Clean Water Act compared to the existing regulations 
on the book. It would not assert jurisdiction over any type of 
waters not previously protected over the past 40 years.
    The rule does not apply to lands, whole flood plains, 
backyards, wet spots or puddles. It will increase transparency, 
consistency and predictability in making jurisdictional 
determinations and reduce existing cost confusion and delays. 
It represents the best peer-reviewed science about functions 
and values of the Nation's waters. The agencies will not 
finalize this rule until the Science Advisory Board completes 
its review, which you have mentioned, Mr. Chairman.
    It would reduce Clean Water Act jurisdiction over ditches 
compared to the previous 2008 guidance. The rule will maintain 
all existing Clean Water Act exemptions and exclusions. In 
addition, the agencies also identify agricultural conservation 
practices conducted in waters that do not require a 404 permit. 
We want to encourage conservation work on agricultural land.
    We have published a proposed rule not a final rule. We are 
currently taking public comment, and we have extended the 
comment period, as you have already heard. We expect a 
tremendous amount of public response from a broad range of 
interests, and we are actively working to meet with a wide 
range of stakeholders. This outreach has already been 
tremendously helpful to us in understanding the concerns and 
discussing effective solutions. We are going to continue to 
work hard and listen more effectively and learn more and better 
understand.
    Let me just conclude by emphasizing my strong belief that 
what is good for the environment and clean water is also good 
for farmers, ranchers, foresters, manufacturers, homebuilders, 
small businesses, communities, energy producers and all 
Americans.
    We look forward to working with all stakeholders to reflect 
this important goal in the final rule in defining geographic 
role of the Clean Water Act.
    And I thank you, and I look forward to your questions.
    Mr. Gibbs. Assistant Secretary Darcy, welcome. The floor is 
yours.
    Ms. Darcy. Thank you.
    Good morning, Chairman Gibbs, Ranking Member Bishop and 
other members of the committee.
    Thank you for this opportunity today to discuss the 
proposed rule clarifying the definition of waters of the United 
States under the Clean Water Act. Once implemented, this rule 
will enable the Army Corps of Engineers to more effectively and 
efficiently protect our Nation's aquatic resources while 
enabling appropriate development proposals to move forward.
    Clean Water Act jurisdiction applies to ``navigable 
waters,'' defined in the statute as ``waters of the United 
States including the territorial seas.'' Our 1986 regulations 
define ``waters of the United States'' as traditional navigable 
waters, interstate waters, all other waters that could affect 
interstate or foreign commerce, impoundments of the waters in 
the United States, tributaries, the territorial seas and 
adjacent wetlands.
    The U.S. Supreme Court has addressed the scope of waters 
regulated under the Clean Water Act in three occasions, 
specifically the Riverside Bayview Homes case of 1985, the 
SWANCC decision in 2001, and the Rapanos decision in 2006. The 
Court's decisions significantly altered the regulatory 
landscape, and although the Corps and the Environmental 
Protection Agency have done a fine job adjusting their 
regulatory activities in response, a critical need exists for 
this rulemaking.
    We receive many comments from Congress, from organizations, 
from stakeholders, from the public, urging the agencies to 
pursue notice and comment rulemaking, including Chief Justice 
Roberts himself, and the Rapanos decision strongly recommended 
that the agencies initiate a rulemaking.
    We have been working for several years now to develop a 
science-based rule that will provide the clarity needed, the 
transparency, as well as the efficiency. Under the proposed 
rule, the process of identifying waters of the United States 
will become less complicated and more efficient as to which 
waters are and which waters are not jurisdictional. Our 
proposal does not assert jurisdiction over any new category of 
waters; however, we do expect that there will be a small 
increase in jurisdiction over the existing 2008 guidance, but 
the extent of jurisdiction is less inclusive than the 1986 
regulations.
    Our decision to propose to regulate by rule, all 
tributaries and adjacent waters and wetlands is scientifically 
based and is consistent with our understanding that these 
waters, alone or in combination with similarly situated waters 
in the watershed, have a significant nexus to jurisdictional 
waters. Other waters may be determined jurisdictional only upon 
a case-specific determination that a significant nexus exists 
between the jurisdictional water. This is consistent with our 
current practice.
    The proposed rule will also exclude certain waters and 
erosional features. Waste treatment systems and prior converted 
croplands remain excluded. We anticipate receiving meaningful 
comments on the proposed rule, and as you know, the comment 
period has just been extended until October 20 of this year.
    Mr. Chairman, and members of the committee, I am happy to 
answer your questions and look forward to this hearing. Thank 
you.
    Mr. Gibbs. At this time, Mr. Chairman of the committee, 
Bill Shuster, do you have--OK. He yields to former chairman Mr. 
Young from Alaska.
    Mr. Young. Thank you, Mr. Chairman. I want to thank the 
witnesses.
    I have a personal feeling about the EPA. I want you to know 
what you have done in Alaska to me is a disgrace. Without any 
input from the State of Alaska, any cooperation with the State 
of Alaska, any understanding of the effect upon individuals in 
the State of Alaska, preempting a State-owned property without 
consulting, total arrogance on part of another agency.
    The second thing, Mr. Perciasepe, is the influence you 
have, Ms. Darcy, on your agency where we just now have a Corps 
request of a new way to allow family mining to take place, and 
I have information it was submitted by the Corps for permitting 
because of the EPA. That is not right. You are a separate 
agency, you should have the ability to make decisions based 
upon other than, I call, a policy of an EPA that doesn't 
understand that there is economics, there is a human life that 
is involved, and that is the last of my statement.
    But I would like to just ask the question to the EPA. In 
this bill, you indicated costs were underestimated. Are you 
doing anything about that? Are you looking at the cost of this 
legislation upon the economy and upon the individual States?
    Mr. Perciasepe. Thank you for the question. We have a draft 
economic analysis that accompanies the proposal. Our draft 
economic analysis does identify the costs, and it does identify 
the benefits that we anticipate----
    Mr. Young. But is it true you underestimated the cost in 
this proposal?
    Mr. Perciasepe. We do not believe we have underestimated 
the cost.
    Mr. Young. So you are not doing anything about it?
    Mr. Perciasepe. Well, it is a proposal so we are taking 
comment on the economic analysis, and if we do get comment that 
demonstrates any modification or improvement that we can make 
on it, we will obviously take that into account before we do 
any final----
    Mr. Young. Did you consult with any of the States involved 
or any of the States in the United States on this proposal?
    Mr. Perciasepe. We have had discussions, ongoing 
discussions with the States, and we continue to have ongoing 
discussions.
    Mr. Young. Have you found one State that supported this 
proposal?
    Mr. Perciasepe. I don't have a polling of the States.
    Mr. Young. So you really didn't consult. Because I don't 
believe there is one of the 50 States that support this 
proposal.
    Mr. Perciasepe. I couldn't say that one way or the other.
    Mr. Young. Well, you are the Agency. You should know that 
if you are consulting them. There should be somebody, one State 
saying this is a grand idea, and if you don't know, that means 
you didn't consult with them.
    Mr. Perciasepe. We did consult with them.
    Mr. Young. Well, no, because you didn't do it well enough. 
You didn't write it so the States could accept it. You got 50 
States that say they don't like this program. Fifty States sir, 
and you represent 50 States supposedly as an agency.
    Mr. Perciasepe. I don't believe 50 States have said that, 
sir.
    Mr. Young. Oh, well, do you believe they said in one State? 
Give me one State.
    Mr. Perciasepe. The way we----
    Mr. Young. One State.
    Mr. Perciasepe. I am sure they will----
    Mr. Young. You have not one State.
    Mr. Perciasepe. I don't have one State?
    Mr. Young. You have not one State that supports this 
proposal?
    Mr. Perciasepe. All right. You won't let me answer, so go 
ahead.
    Mr. Young. No. I am asking you a question. You can't do it?
    Mr. Perciasepe. All right. Well, you have to stop talking 
so I can answer.
    Mr. Young. You can't do it. You can't do it. Now, that is 
what bothers me. Now, if I have a private piece of property 
under the Constitution is mine----
    Mr. Perciasepe. Yes, correct.
    Mr. Young [continuing]. And I have water on it, can you 
under this rule go in and tell me I cannot make a difference in 
the water that is on my property? I cannot drain my pond under 
this rule?
    Mr. Perciasepe. If those waters are jurisdictional under 
the Clean Water Act, you would have to get a permit to do it.
    Mr. Young. The question is very simple. I have a pond of 
water. It is on my private land. It is my water. Is that not 
true, it is my water?
    Mr. Perciasepe. It is on your land.
    Mr. Young. Is it my water?
    Mr. Perciasepe. That varies from State to State on water 
rights.
    Mr. Young. I ask you as Federal. State has not proposed 
this. It is my water. It is on my property, and I want to drain 
it. Can I do that without your permission?
    Mr. Perciasepe. The United States Congress has enacted a 
law that requires a permit to do work in waters that are 
jurisdictional under the Clean Water Act. So if it is, and I 
have no idea whether it is or not because I don't know which 
water you are talking about, it would require a permit.
    Mr. Young. It is my property. This is my ranch.
    Mr. Perciasepe. It would require a permit if it is 
jurisdictional. If it isn't jurisdictional, you won't need a 
permit.
    Mr. Young. Mr. Chairman, if I say so in the committee, this 
is an example, under the Constitution you have a right on your 
property to protect your property. If I want to drain it 
because I have got, what do you call these fish that walk 
across the water on the land and get in the other area and I 
want to kill those fish and I can do it by draining it, and now 
I have to get a permit from you and your agency says, no, you 
can't do it because we have not given you a permit. You are 
taking from my right to run my land. That is unconstitutional. 
And you, both of you swore to uphold the Constitution.
    Mr. Perciasepe. That is correct.
    Mr. Young. And you are not doing it if I can't run my land 
and my water. Mr. Chairman, that is an example of giving the 
overstepping of this Government. I have watched this for 81 
years. We have a Government today, Mr. Chairman, that is taking 
away the right of individual's rights, and I say to the Agency, 
no. That people are going to stand up one of these days and 
say, no more. That is enough. You are not going to go against 
the Constitution. And my time is done. Let the chairman do it. 
Let everybody else start asking these questions.
    Mr. Gibbs. Thank you. Mr. Rahall.
    Mr. Rahall. Thank you, Mr. Chairman. I will try to be a 
little tamer.
    Mr. Deputy Administrator, as we all know, the coal 
industry, coal-mining jobs, crucial, vital to my home State. It 
is our livelihood. Coal literally keeps the lights on, and when 
we have downturns for a variety of factors or a variety of 
reasons contribute to those downturns in the industry as we are 
in now. There are layoffs, layoffs of law enforcement personnel 
by county commissioners who cannot find the funding to keep 
officers on the street or even keep the lights on in their 
courthouses or keep staff employed.
    So there is a lot of families watching these proposals in 
my district as they did the recent proposals announced last 
week and they are worried about their jobs. They are receiving 
warn notices as we speak. Again, there is a variety of factors 
for this downturn. I recognize that. Everybody recognizes that.
    But in these downturns in the past, we have always felt the 
Government is trying to help us get out of these downturns in 
the coal industry. That is not the feeling now. As a matter of 
fact, just the opposite. I think our Government is trying to 
keep us in a downturn and trying to finish us off during this 
current down cycle.
    So, you know, as I say, everybody is worried about 
everything that comes out of EPA in the district I am honored 
to represent. Several years ago the agencies went through an 
extended exercise to align various definitions of fill material 
that has a lot in the industry concerned. My question to you 
would be, is the EPA planning now to revisit that and redefine 
what is fill material?
    Mr. Perciasepe. Congressman, we absolutely have no plans to 
revisit that.
    Mr. Rahall. OK. Let me ask you another question. On the 
issue of properly permitted ditches on mine sites that are in 
place to address stormwater runoff, is the rule expected to 
capture these onsite draining systems?
    Mr. Perciasepe. Looking specifically, for instance, at a 
permitted coal mining site, we would expect that the waste 
treatment exclusion in the rule that we are continuing in this 
same way it has always been there, we will continue, which 
covers many of those. Any stormwater ditches or ponds that were 
constructed to convey or deal with stormwater control on mining 
sites would not be covered, and we are not changing the water 
treatment or the waste treatment system exclusion rule, the 
imposing of the rule.
    So with those clarifying points, which are reinforcing the 
fact that the answer is no, that we would not have jurisdiction 
over those treatment facilities that are on a permitted mine 
site.
    Mr. Rahall. So the industry could continue to rely upon 
your longstanding Agency interpretations----
    Mr. Perciasepe. Yeah, exactly.
    Mr. Rahall [continuing]. Regarding these uses?
    Mr. Gibbs. Madam Secretary.
    Ms. Darcy. Yes, those exclusions will stay in place under 
this proposed rule.
    Mr. Rahall. OK. Thank you.
    I yield back, Mr. Chairman.
    Mr. Gibbs. I have some questions.
    First of all, you are absolutely right. We need to make 
sure we bring certainty to our businesses and our farmers and 
everybody out there, but there is so much vagueness, and when I 
hear your testimony, and I actually read the testimony of the 
next panel, I hope you are able to stay around to hear the next 
panel since you are the regulators and see what their concerns 
are. So I really would appreciate if you are able to stay 
around and hear their testimony because they are really 
concerned about that, too, and they have a little different 
take on that.
    First of all, some of the things you, Mr. Perciasepe said, 
I hope that you can put that in writing because sometimes 
saying things, we like to see it down in writing for the 
official record.
    But Ms. Darcy, we are talking about vagueness. In your 
testimony, it says, ``The agencies proposed that waters outside 
of the riparian and flood plain areas would be jurisdictional 
only if they have confined surface or shallow subsurface 
connection to the traditional navigable waters,'' and so on. 
Would you please explain to me what you mean by the 
connectivity or the surface or a shallow subsurface connection? 
Because you say you are not expanding the scope of your 
jurisdiction, but I don't know what that means.
    Ms. Darcy. Congressman, what it means is that if there is a 
connection between that and the flood plain, and if the flood 
plain is a navigable water, then a significant nexus 
determination would need to be made.
    Mr. Gibbs. Any connection or significant connection? I 
don't mean to de minimis anything, but----
    Ms. Darcy. No, significant connection, and we define 
significant nexus in the rule as to how significant that would 
be. It has to be able to impact----
    Mr. Gibbs. OK. Would you explain to me how you define 
significant?
    Ms. Darcy. Pardon me?
    Mr. Gibbs. Would you explain to me how you define 
significant?
    Ms. Darcy. I will read you the definition, if that will 
help.
    ``Significant nexus means that a water, including a 
wetland, either alone or in combination with other similarly 
situated waters in the region in that watershed significantly 
affects the chemical, physical or biological integrity of a 
water identified as a jurisdictional water.''
    Mr. Gibbs. So for example out West, I have been out West, I 
have seen areas where they might get water flowing through an 
area during a once-in-a-year rain event and you know, it is dry 
beds, would that be significant?
    Ms. Darcy. That, again, would be an individual case-by-case 
determination depending on the circumstances in that area. For 
example, some of those kinds of waters, if they are determined 
to be a tributary, which is defined as a water body that has a 
bed, a bank and ordinary high water mark and----
    Mr. Gibbs. So let's say in my farm last month I had a 
washout, and I went out there and I fixed it. It was probably 
200 feet long. It washed out. It was close to 2 feet deep, 2 
feet wide. You know, I had to fill that in, and I planted grass 
and tried to do the right thing to fix that.
    Now, if you came out, the Corps came out, would they say 
that was a water bed? Or would I be able to fix that without 
getting a permit?
    Ms. Darcy. Congressman, what you have described would be an 
erosional feature. That would not be subject to a 
jurisdictional determination.
    Mr. Gibbs. OK. I read through the testimony of the next 
panel. There is a lot of concern that the States haven't been 
consulted, local governments haven't been consulted, so I just 
wanted to make you aware of that, Mr. Perciasepe, that there is 
concern about that.
    Also there is a huge concern of local governments, road 
ditches, because you talked about, I think you used 
significant, the bed. So I think you could define that as a 
ditch now on the new definition as a tributary. Does that mean 
when they are doing a dredge or clean out the ditch that they 
are going to have to get a permit?
    Ms. Darcy. Congressman, for the first time, we are 
excluding in this rule ditches and if you would like, I can 
give you the two examples of what kinds of ditches.
    Mr. Gibbs. Well, I guess there is some controversy if you 
really are or not, and I think the trust factor here, we have 
seen some of the things that the EPA has done in the past with 
the revocation of permits and veto of permits and preemption of 
permits that I think there is a high level of distrust out 
there, and I am really concerned about how we move forward on 
that area.
    OK. I am just about out of time. I think I will turn it 
over to Mr. Bishop.
    Mr. Bishop. Thank you, Mr. Chairman.
    Assistant Secretary Darcy, first off, thank you for reading 
the definition of significant nexus. Am I correct in 
understanding that the language in the significant nexus 
definition as included in the proposed rule, is lifted almost 
verbatim from Justice Kennedy's ruling in the Rapanos case?
    Ms. Darcy. I believe that to be the case and also, I would 
just like to reiterate that the definitions are also part of 
what is being proposed in this rule as being open for public 
comment.
    Mr. Bishop. OK. But you are staying wholly within the 
confines of Justice Kennedy's definition of significant nexus 
in this proposed rule; is that correct?
    Ms. Darcy. That is correct.
    Mr. Bishop. And is it also correct that Justice Scalia in 
his definition of relatively permanent connection to 
traditional navigable waters suggested a hydrological 
connection in his ruling, and is it not the case that your 
proposed definition adheres to Justice Scalia's definition; am 
I right about that?
    Ms. Darcy. That is correct.
    Mr. Bishop. Thank you. Now, let me ask you this, there are 
these two rules or two tests, the relatively significant nexus 
tests and the relatively permanent connection test. Is there 
any way in which any aspect of your proposed rule extends 
jurisdiction beyond the four corners of those two definitions?
    Ms. Darcy. No.
    Mr. Bishop. Mr. Perciasepe, do you agree with that?
    Mr. Perciasepe. I do, and, in fact, I would just augment 
slightly that in addition to the definition that the colloquy 
just discussed here, the discussion on the words in the Supreme 
Court Judges, we actually are using this rulemaking to, by 
rule, exclude certain things. So even with that test, some, 
notwithstanding if they would pass that test or not, they are 
excluded.
    Things like, to go back to the Chair's question, ditches 
that are excavated wholly in uplands, that drain only in 
uplands and that have less than perennial flow, which is 
virtually most of the highway drainage ditches in the country. 
You know, they are not draining a wetland. They are not 
draining a stream. They are just draining dry land when it 
rains. Those are excluded in the definition of the rule. So I 
just wanted to add that to Assistant Secretary Darcy's comment.
    Mr. Bishop. But just to be clear, this has been described 
as a power grab. It has been described in other ways somewhat 
even more pejorative than that. Your definitions are 
definitions that hue precisely to the definitions suggested by 
the two Supreme Court rulings?
    Ms. Darcy. That is correct.
    Mr. Bishop. Thank you. Let me move to another area.
    The operative guidance that we have right now is the 2008 
guidance. The 2008 guidance asserts jurisdiction over dry land 
ditches that flow less than year-round, yet your proposal 
limits jurisdiction by requiring water year-round. Am I 
correct, therefore, in determining that jurisdiction over fewer 
ditches would be asserted under your ruling than is currently 
the case today?
    Ms. Darcy. That is correct.
    Mr. Bishop. OK. So it limits, rather than expands the scope 
of the Clean Water Act in that particular case. Am I right 
about that?
    Ms. Darcy. That is correct.
    Mr. Bishop. All right. Let me just ask one more question. 
Are there any examples where the proposed rule expands the 
definition of jurisdictional waters that is currently the case 
under the 2008 guidance?
    Ms. Darcy. No.
    Mr. Bishop. Mr. Perciasepe, do you agree with that?
    Mr. Perciasepe. I do. There is no expansion.
    Mr. Bishop. And does it, in fact, limit some of the 
jurisdiction?
    Mr. Perciasepe. It does. In fact, some of those 
limitations, as I mentioned, have to be done through 
rulemaking.
    Mr. Bishop. OK. So those who are proposing that we prohibit 
the use of Federal funds to allow this rulemaking to go forward 
or to enforce that rule, this might be a falling under the 
heading of be careful what you hope for because the 2008 
guidance is more restrictive than what this rule is proposing? 
Is that a correct interpretation?
    Ms. Darcy. In some instances, that is correct.
    Mr. Bishop. Mr. Perciasepe, do you agree with that?
    Mr. Perciasepe. I do.
    Mr. Bishop. OK.
    Thank you very much. I will yield back.
    Mr. Gibbs. Mr. Shuster.
    Mr. Shuster. That you, Mr. Chairman.
    You know, some words have been used here: ``Flexibility.'' 
Flexibility is a great thing when both parties get to use 
flexibility. My concern is that when you talk about 
flexibility, the stakeholders seem to never get the flexibility 
to come under a rule and be able to mitigate the problem 
themselves in a way that it would work.
    What typically happens that I see is when you talk about 
flexibility, it allows the EPA and the Corps the flexibility in 
different districts, in different regional offices across the 
country to interpret these things differently.
    And we see that in Pennsylvania on the Marcellus gas play 
where the Corps office in Baltimore is treating Pennsylvania 
and wherever else, the other places it has jurisdiction 
differently than what happens in Arkansas and other places in 
this country because the local office is interpreting these 
rules and regulations in a different way.
    For instance, also the word ``significant.'' Significant, 
what it means to me and what it means to you is different. I am 
not a scientist. I am not a geologist. You don't have specifics 
in there as to really what significant is. It requires a 
measurement of some sort, then I can understand it, or 
measurement that a farmer or a developer can understand.
    So you have got all these nice terms in here but when you 
look at how you have made these definitions, tributary, 
adjacent, flood plain, neighboring waters, they are very vague 
to my understanding and so when we talk to the stakeholders 
today and have been talking to them, they are very vague to 
them.
    So can you tell us now what waters would definitely no 
longer be regulated by the Federal Government under this 
proposed rule?
    Ms. Darcy. We have a series of exclusions that are defined 
here, and if you would like, I can read those to you. It is 
under section B1 of the definition of the rule. It is, waters 
that are not going to be considered are wastewater treatments, 
prior converted cropland, ditches that are excavated wholly in 
uplands, ditches that do not contribute flow either directly or 
through other waters to a water, and artificially irrigated 
areas that would revert to uplands, artificial lakes. This 
whole list. Do you want me to continue?
    Mr. Shuster. So if the water somehow seeps into a body of 
water that is flowing because of a flood or something 
occurring, some extreme weather event occurs, will that enable 
the regulators to change the definition of that ditch or that 
pond to fall under the Federal jurisdiction?
    Ms. Darcy. Congressman, if the water body contributes to 
the flow of a tributary, then that would be considered a 
jurisdictional----
    Mr. Shuster. So we get a 100-year storm and floods with 
typically irrigated field and a diversion ditch on a farm which 
never really, it never flowed into the river that is close by. 
If that event occurred, then, would that come under Federal 
regulation?
    Ms. Darcy. Congressman, it sounds as though you are 
describing a flood event and the runoff from that flood event, 
and that kind of runoff would not be considered a 
jurisdictional water of the United States.
    Mr. Shuster. When you talk about waste treatment--yes, sir.
    Mr. Perciasepe. Just to add in, because I think this gets 
at some of the potential need for continued dialogue. We are 
using the term ``flood plain'' to try to get at the issue of 
adjacency which has been in a number of the Supreme Court 
cases.
    But just because it is a flood plain doesn't mean it is 
jurisdictional. It still would have to be a water in the flood 
plain, you know, standing water or a wetland with the hydric 
soils and the vegetation or an actual running stream through a 
flood plain area. But the flood plain is an area that can help 
identify, and that is what we are proposing to take comment on 
that it is adjacent to the other traditional water.
    So, I want to be really clear that the entire flood plain, 
which may flood, is not jurisdictional and, in fact, I want to 
remind that, agriculture is exempt from having to get permits 
in that area regardless of whether it has got a wetland in part 
of it.
    So I wanted to just add to the Assistant Secretary's 
comments on that.
    Mr. Shuster. And, of great concern to me, because I have 
seen it happen firsthand in Pennsylvania, where I just talked 
about the Corps, we have a, I believe it is an EPA field office 
up in State College Pennsylvania, that is staffed with, well, 
used to be staff with, I don't know who is there today 
presently, with people that are extreme environmentalists and 
they will interpret the law differently than the folks in 
Washington.
    And I said with the Corps what is happening in Baltimore 
versus what they do in Arkansas or other places of the country 
doesn't conform to what the rule is necessarily. It is an 
interpretation, and that happens, I think, I am willing to bet 
that everybody in this room has faced that before where the 
local office, whether it is the regional or the district 
office, is looking at things differently.
    And so how can you protect the stakeholders against that 
occurring?
    Mr. Perciasepe. Well, I will let Assistant Secretary Darcy 
answer for the Corps, but we both have regional structures, as 
you point out, and it is important for us to develop 
consistency and predictability there. That is a high priority 
for both of us, and we view the work we are doing in this rule 
and when we get it finalized to help us provide that 
consistency and predictability.
    Mr. Shuster. Have you experienced that in the EPA where you 
have seen regional directors look at something very, very 
differently?
    Mr. Perciasepe. Well, to the extent that we can 
practically--I mean, there is always difference of opinions in 
any organization. Our objective is always to try to reconcile.
    Mr. Shuster. That is my point. What you are trying to do is 
what we always try to do in Washington is a one-size-fits-all, 
and then what you have is you have got differences of opinion 
and that causes tremendous problems for people out there trying 
to earn a living and farm the ground and run their businesses.
    Mr. Perciasepe. You have hit the nail on the head of that. 
We have to find a way to have enough predictability and 
consistency so that there isn't vagaries of different opinions 
all over the country. But at the same time, we can't be so 
constrained, you know, in a one-size-fits-all world.
    So what we are trying to do is get that right, so we have 
definitions here and practice that will be established that can 
deal with the different situations in the country.
    Mr. Shuster. Well, and I know I have extended my time, but 
just a final point, because I think Chairman Young made a very 
good point, or a very good question, when he asked you, is 
there one State out there that has said this is really good, we 
embrace it? And I will let you finish answering the question.
    Mr. Perciasepe. I am sorry about that before. I really 
apologize. But let me just say draining a pond does not require 
a permit, just, if I could have answered.
    But filling it would require permit under the Federal law. 
The State organizations have been very supportive, you know, 
the Environmental Council of the States, some of the other 
water organizations that represent State water. They have been 
supportive as weave been building this, but we have yet to get 
any specific comments on the rule from States.
    So I can do a polling of them but I haven't done that 
polling yet because we plan to do significant continued 
outreach with them between now and when the comment period is 
over, and I want to point out that we treat States differently 
than normal commenters because they are coregulators with EPA. 
So, we are going to be working with them differently, although 
they will be submitting comments.
    Mr. Shuster. Again, our DEP in Pennsylvania over the past 
couple years hasn't seen eye to eye with the Corps or EPA, and 
back when there was a different administration they saw eye to 
eye. So again, a problem that we are going to face is this rule 
is going to go into place with all these, there are a lot of 
vague terms in there, and what is going to happen is these 
stakeholders, and we are going to have them up next here, talk 
about the damage it is going to cost them.
    And again, to your point about you don't have to get a 
permit to drain the pond, can you put that in the rule to make 
sure we are clear on that? So when Chairman Young tries to 
drain his pond he doesn't have to come get a permit.
    Ms. Darcy. I think we can make that more clear.
    Mr. Shuster. I yield back. Thank you, Chairman.
    Mr. Gibbs. Mr. Perciasepe, just to make a comment. What we 
are hearing from the State EPAs is that they are concerned 
because they haven't been consolidated enough in this proposed 
rule. So a point of information.
    Mr. Nolan here, do you have questions?
    Mr. Nolan. Yes. Thank you.
    Thank you, Mr. Chairman, and thank you to the panel.
    First of all, I would like to respond to my good friend of 
over 40 years, Don Young, who is so shy and reticent about 
expressing an opinion. I, too, have a farm, and we have a 
little pond on it that my wife and I created. It is quite 
beautiful, right alongside the house. I suspect that would not 
be covered by jurisdiction and the courts have ruled that we 
don't have unlimited control over those waters that are 
navigable.
    So we have a river, flows through my farm, as well, and the 
courts have ruled that we have no right to dump toxic 
substances and other things into that river that would be 
harmful to people downstream. So with all due respect, to my 
good friend, there are some constitutional restrictions and 
limitations.
    As to the proposed rule, I will reserve final judgment 
until I have heard all the facts, but I do want to applaud you 
to the extent that you do try to give us some predictability 
and some consistency here. That would be very, very helpful to 
many parties. I have a couple of quick questions. I will try to 
be quick with them and please be quick with your answers so I 
can get as many of them in as possible.
    First of all, is I have a company that is talking about 
investing $3 billion in my congressional district, and my 
question of you is, how do you think that the jurisdiction that 
is proposed in this rule, combined, you know, combined with 
EPA's retroactive and preemptive 404 authority and action, how 
do you think that impacts a company looking at making a rather 
substantial investment?
    Mr. Perciasepe. Well, I don't know if what they are 
proposing is going to impact water or not.
    Mr. Nolan. Pretty hard to do anything in Minnesota without 
impacting water.
    Mr. Perciasepe. So I am just going to say at a high level, 
I think the Army Corps of Engineers through the permitting 
process has authorized over 2 million permits and activities 
under this section of law and 13 have been involved with the 
so-called veto, which is essentially EPA designating a section 
of water that can't have a discharge of the fill into it. So, 
it is an extremely rare occurrence that that gets used, and 
there is a significant amount of work and process that goes on 
for it.
    So, I would think in the normal realm of activities you are 
talking about projects that go through the permitting process, 
they get permitted, they may have to do mitigation, that is 
some of what our economic analysis has shown, that there may be 
some of that. But generally speaking, I don't see that as a 
deterrent to business.
    Mr. Nolan. Well, as someone who spent that last 32 years of 
my life in business, I can tell you the prospect of that has a 
very chilling, dampening effect on anyone considering any kind 
of a substantial investment with regard to the Constitution. It 
all raises the whole question of due process for companies in 
that kind of a situation.
    My next question is with regard with the trail systems, 
snow mobilers, cross-country skiers, snow shoers and on frozen 
water ways and wetlands that provide some multiuse recreational 
opportunities for individuals. How would these regulations 
impact them?
    Ms. Darcy. I don't believe the proposed rule would change 
the current status of what would be required under the current 
law for those.
    Mr. Nolan. Is that your understanding, as well?
    Farmers continue to ask, who is ultimately in charge of 
enforcement? The EPA? Army Corps? Who is going to do the 
enforcement here?
    Ms. Darcy. If someone has a Department of the Army permit 
for an action and is in violation of that permit, it would be 
the Army Corps of Engineers' responsibility to ensure that that 
permit is being undertaken as agreed to, so it would be our 
responsibility.
    Mr. Nolan. Well, what if the EPA determines it is part of 
their jurisdiction? I mean, who does the enforcement, then?
    Mr. Perciasepe. Obviously, these things get very case 
specific. We have somewhere in the vicinity of 30 to 40 cases 
or so a year that we end up getting involved with, as well.
    Mr. Nolan. Well, what do you do in those cases where, you 
know, the Army Corps has one definition and the Natural 
Resources Conservation Service has a different definition and 
you are compliant with one and noncompliant with another? I 
mean, what kind of methodologies or matters for resolving this 
do you have in place?
    Ms. Darcy. Could I just explain about the interpretive rule 
that accompanies this proposed rule that deals with the 
National Conservation Service regulations and practices.
    We are exempting about 56 of those practices from any kind 
of Clean Water Act permitting requirement in the interpretive 
rule that we have put out at the same time as the proposed 
rule.
    So it would be the Natural Resources Conservation Service 
and those local agents who would be responsible for assuring 
that the practices undertaken by that farmer or silviculture or 
rancher were being complied with.
    Mr. Nolan. OK. And lastly, what kind of outreach do you 
have planned to help get the word out of what, in fact, all 
this is and isn't?
    Ms. Darcy. We have conducted a number of conference calls, 
webinars, over 64 to date since the issuing of the proposed 
rule and will plan to continue to do that throughout now. Now 
that this comment period has been extended, we may try to 
increase those outreach efforts between now and then.
    Mr. Nolan. And then my last question, we heard a lot of 
questions here about the States, what do you think these 
actions or how they will impact the ability the State and local 
governments, to exercise their authority with respect to land 
use management and planning?
    Ms. Darcy. These jurisdictional determinations do not 
impact their local authorities other than if they are looking 
to do any kind of development in a water of the United States. 
They would need to look to see whether that water is 
jurisdictional and what sort of permit would be needed by the--
--
    Mr. Nolan. Will they supersede State plans in any manner, 
shape or form?
    Ms. Darcy. Not land planning, no. That is local, planning 
and zoning.
    Mr. Nolan. OK.
    Thank you, Mr. Chairman. I yield the balance of my time.
    Mr. Gibbs. Mr. Crawford.
    Mr. Crawford. Thank you, Mr. Chairman.
    Assistant Secretary Darcy, you stated earlier in the course 
of answering one of the questions that one of my colleagues 
asked in the proposal we define, and you have also used 
personal possessive pronouns. I am a little confused. Whose 
proposal is this?
    Ms. Darcy. It is the administration's proposal.
    Mr. Crawford. The administration?
    Ms. Darcy. Yes.
    Mr. Crawford. So have you been working with the 
administration to develop the proposed rule?
    Ms. Darcy. Yes, EPA and the Corps of Engineers have 
developed this rule together.
    Mr. Crawford. OK. But this is ultimately, this an EPA 
proposed rule, correct?
    Ms. Darcy. No, it is the administration's rule.
    Mr. Crawford. The administration is proposing now?
    Ms. Darcy. Yes.
    Mr. Crawford. OK. But you have been collaborating with the 
Corps, I mean, with EPA rather?
    Ms. Darcy. Yes, sir.
    Mr. Crawford. OK. We are currently in the public comment 
period, correct?
    Ms. Darcy. Yes.
    Mr. Crawford. Have you submitted public comment?
    Ms. Darcy. No.
    Mr. Crawford. OK. Do you intend to submit public comment?
    Ms. Darcy. No, we intend to review the public comment with 
the EPA.
    Mr. Crawford. Collaboratively?
    Ms. Darcy. Yes.
    Mr. Crawford. OK. I was just a little confused by that.
    Deputy Administrator, can you define a ditch? I just want 
to get some clarity. I apologize if I am repeating myself, but 
could you give me some clarity on what a ditch is.
    Mr. Perciasepe. Well, I mean, what we have tried to do in 
our proposal is make it clear that ditches that are built on 
land that is normally dry and somebody puts a ditch through it 
to drain it from rain or some other wet event and it has got 
water in it sometime, that these are not covered no matter 
what.
    Mr. Crawford. OK. So here is the problem I have with that.
    Mr. Perciasepe. OK.
    Mr. Crawford. Ultimately, that ditch is designed to drain 
water. It is going to drain into something. At some point it 
drains into a body of water that is regulated and then 
therefore becomes regulated; is that not correct?
    Mr. Perciasepe. So the reason we are doing the rulemaking--
--
    Mr. Crawford. I have only got 5 minutes. Is that correct?
    Mr. Perciasepe. I understand, but let me answer, please. If 
you just look at the definition of ``significant nexus,'' you 
might start getting into those kinds of thoughts.
    But, so what we did in the rulemaking is we specifically by 
rule are excluding those no matter whether they meet a test or 
not, and I think that is a key important factor.
    Mr. Crawford. We had in the last 2 or 3 days in my 
hometown, we have had about 14 inches of rain. Got a neighbor, 
got a swimming pool, swimming pool overflows, can't handle too 
much. Water flows into a ditch, ditch flows into a regulated 
body of water. How far back, does that swimming pool become a 
regulated waterway?
    Mr. Perciasepe. It does not. It is not a wetland nor is 
it----
    Mr. Crawford. You don't think that is much of a stretch, 
though, do you, I mean, to think that----
    Mr. Perciasepe. No. I think it is a stretch.
    Mr. Crawford. Do you really?
    Mr. Perciasepe. We are----
    Mr. Crawford. The ambiguity that I am hearing from all of 
this is so great that I don't think that is a stretch at all.
    Mr. Perciasepe. Artificial lakes, ponds, swimming pools, 
they are specifically excluded. We are writing them in the 
pool.
    Mr. Crawford. Up to the point that they overflow into a 
ditch that drains into a regulated body of water at which point 
they become connected, correct?
    Mr. Perciasepe. Go ahead.
    Ms. Darcy. I would say that is not a significant nexus.
    Mr. Crawford. OK. Well, I am not sold on that, but at any 
rate, so what about flooded rice fields? At some point in time 
they are going to drain into----
    Mr. Perciasepe. Flooded?
    Mr. Crawford [continuing]. Flooded rice fields.
    Mr. Perciasepe. Rice fields are not included.
    Mr. Crawford. Well, I think what is going on here is an 
effort to create such ambiguity that you are given ultimate 
regulatory authority on a whim; and that, there is really no 
recourse for those folks that are affected and fining that is 
going to come through, and farmers and other businesses the 
cash flow that it is going to impact and there has not been any 
economic analysis to address that.
    And let me ask you one more thing about public comment. 
Will you be entertaining public comments from other Federal 
agencies?
    Ms. Darcy. Yes.
    Mr. Crawford. You will. And you think that is appropriate?
    Ms. Darcy. Yes. Most rulemaking----
    Mr. Crawford. Are they more heavily weighted than public 
comment from, say, some of the relevant stakeholders in the 
private sector?
    Ms. Darcy. No, sir.
    Mr. Crawford. Our friends at Farm Bureau, for example, 
National Association of Counties, will they be given equal 
weight, their public comments?
    Ms. Darcy. Yes, they will.
    Mr. Crawford. I think you will find when you hear their 
public comments, and I would also echo the sentence of the 
chairman, encourage you to stay around and hear their comments 
and find that they probably agree with me that there is 
significant ambiguity in this to cause great concern not just 
in the agriculture industry, but to homeowners to business 
owners and anybody that has even a view of water from where 
they are standing.
    So with that, I yield back.
    Mr. Gibbs. I am going to take 14 of your seconds just for 
clarification. We talk about the vagueness, the ambiguity. That 
is what you are saying, but doesn't this open for citizens' 
lawsuits, how they interpret the rule and litigation?
    Mr. Perciasepe. Here is where we can work together. We have 
tried to list these things specifically in the rule. Rice 
growing is specifically listed as excluded. Normal agricultural 
activities are excluded.
    Mr. Gibbs. We will get into that later.
    Mr. Perciasepe. So if we can, yeah, we expect to hear from 
the stakeholders during this proposal and comment period time 
if we have not done that enough here and then we can sit down 
and talk to them.
    Mr. Gibbs. OK.
    Mr. Perciasepe. But our intention is to get it in here so 
that----
    Mr. Gibbs. We will talk later about this. The rest of this 
Clean Water Act affects other than 404 permitting.
    Ms. Edwards.
    Ms. Edwards. Thank you very much, Mr. Chairman.
    And thank you very much to our witnesses today and 
especially for your honorable public service. I think there are 
many of us in the public who really appreciate both the work of 
the EPA and the Army Corps in protecting our water and making 
sure that it is clean. So thank you.
    I just want to clarify. The notice of the proposed rule was 
issued on April 1st. My understanding is that, because you 
heard from agricultural groups and other stakeholders that 
there wasn't enough time to respond adequately to the rule, 
that that--the response time for comments has been extended to 
October 10th. Is that correct?
    Ms. Darcy. Actually, it has been extended an additional 91 
days till October 20th, because 90 days falls on a Sunday.
    Ms. Edwards. Thank you.
    So hearing from the stakeholders, you took that into 
consideration and you have extended the rule----
    Ms. Darcy. Yes.
    Ms. Edwards [continuing]. The comment period? Thank you.
    And then--so is it a surprise to you that you have not yet 
heard formally from States whether they support or oppose the 
rule because they haven't--there hasn't been a chance yet and 
that it is probably preliminary to qualify, quantify or to 
characterize the supporter opposition to the proposed rule at 
this stage?
    Ms. Darcy. I think that is correct.
    Ms. Edwards. Thank you.
    And then, Mr. Chairman, I have three letters to this 
committee urging us--urging the Congress to enable the EPA and 
the Army Corps to go through the process of the rulemaking 
rather than create legislation that is unnecessary to respond 
to what has been, you know, a very--you know, an environment in 
which people have been quite uncertain about what it is that 
their responsibilities are for permitting, and I would like to 
introduce those into the record.
    It is a letter from Trout Unlimited and 15 sportsmen and 
conservation groups supporting the process and saying 
themselves that they probably plan to submit comments.
    Mr. Gibbs. So ordered.
    Ms. Edwards. Thank you.
    [The information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Ms. Edwards. I have a question, Mr. Perciasepe.
    Can you describe the exemptions that exist in the act and 
in your proposed rule for discharges associated with 
agricultural activities.
    And in the event that certain agricultural activities don't 
qualify for an exemption, am I correct that the Army Corps has 
a fast-track nationwide permit that authorizes an assortment of 
discharges associated with agricultural activities that cause 
the loss of less than half an acre of water bodies?
    Ms. Darcy. Yes. That is our nationwide permit program, and 
that is correct.
    Mr. Perciasepe. Yeah. And I--just as a general matter, the 
normal agricultural activities of--I mean, essentially, for me, 
I could say, if you can--if you are on a piece of land and you 
can plow it, plant it and harvest it, you--under--now you can 
do it under this rule. There is nothing in here that is going 
to change that.
    Ms. Edwards. Thank you very much.
    We recently enacted--in fact, the President just signed 
yesterday our Water Resources Reform and Development Act, and 
we included for the first time provisions that I have been 
quite a champion of, using innovative green and low-impact 
technologies.
    We may hear testimony later that suggests that somehow 
those green infrastructure activities would then fall under the 
purview of this rule.
    Do you have a sense of that?
    Mr. Perciasepe. We don't believe that that will happen and 
it is not our intent. And, of course, we are going to be 
interested in comment on that.
    But most green infrastructure that I am familiar with in an 
urban setting is going to be built in a place that is normally 
dry and you are moving drainage to it.
    There are going to--there may be instances where somebody 
wants to utilize an existing stream or a lake as part of that, 
and then we would have to look to see whether that is part of 
the waste treatment exemption or whether or not there would be 
some--but, again, you don't have to worry about this unless you 
are discharging fill or pollution into that water.
    If you are not discharging pollution into the water, you 
are--you know, you are not going--or fill, you are not going to 
have to get a permit or be under this jurisdiction.
    So we would think and it would--certainly is our intent 
that drainage in an urban area for--and how it is altered to 
have green infrastructure and low-impact development would not 
become jurisdictional and would not be jurisdictional, just as 
we were talking about ditches earlier. So----
    Ms. Edwards. And so, obviously, those kinds of activities 
are actually designed to filter the water, not to contribute to 
the pollution.
    Mr. Perciasepe. We absolutely want to encourage 
conversation work on agriculture land and we want to encourage 
low-impact development in urbanized areas, including green 
infrastructure. Absolutely want to do that.
    Ms. Edwards. Thank you.
    And then, lastly, I understand the rule, if it is 
finalized, would protect roughly 3 percent more waters than are 
protected today, but almost 5 percent fewer waters than were 
protected prior to the Supreme Court's 2001 decision.
    Is that correct? And does that sound like an unprecedented 
radical expansion to you?
    Ms. Darcy. Those numbers are correct. And, in my view, it 
is not a radical expansion.
    Ms. Edwards. Thank you.
    Mr. Gibbs. Mr. Denham.
    Mr. Denham. Thank you.
    Like the gentleman from Minnesota, I am also a farmer, but, 
unlike him, I cannot hope and wait to see what you guys are 
going to come up with. I can't take hope to the bank. And so I 
am very concerned about this.
    It affects the livelihood of our community, of our State, 
the largest ag State in the Nation that is feeling some of this 
pain already due to Army Corps and some of the challenges they 
have already put on some of the fallowed fields that are now 
having some water on those fields.
    And I am concerned that this year, because of Government, 
when water gets shut off to the Central Valley, 1 million acres 
of farmland could be lost.
    Now, it might rain next year and we may have with--the 
fallowed fields may have some puddles that--or ponds that--or 
even some streams that end up going through 1 million acres of 
lost productivity, of lost jobs. So, yeah, I have got a lot of 
questions about this.
    Let me start with you, Ms. Darcy. Because of the ambiguity 
of this rule, do you think it is going to encourage third-party 
lawsuits?
    Ms. Darcy. I actually think that this proposed rule will 
bring additional clarity to the jurisdictional determinations 
that are necessary under the Clean Water Act. So I think, with 
additional clarity, there will be fewer lawsuits.
    Mr. Denham. So you think that this new rulemaking will 
create less lawsuits?
    Ms. Darcy. I do.
    Mr. Denham. And greater clarity?
    Ms. Darcy. I do.
    Mr. Denham. Now, the permits that are going to be 
required--how long do you think it will take to issue a permit?
    Ms. Darcy. Congressman, it depends on what the permit's 
being asked for, that determines how much information we need 
upfront for that particular permit. It does vary. It varies 
from region to region.
    We have individual permits. We have nationwide permits. 
Nationwide permits usually go more quickly than individual 
permits because individual permits usually require more data 
and more information.
    Mr. Denham. If it is an area of farmland that has been 
historically farmed, but may have sat fallow for a year or two 
and now is required to do a permit, how long do you think it 
would take to do a permit?
    Ms. Darcy. Congressman, what you have described would be 
prior converted cropland. That is exempt from the Clean Water 
Act.
    Mr. Denham. Well, I will circle back around to you, because 
I have got a number of constituents that have these very same 
concerns today that are unable to farm, that are losing a 
season of planting, that can't go back through and farm that 
property and, again, seeing that job loss in our community.
    Let me ask you about the Clean Water Act. In 1974, when 
this was originally done, it was then navigable waters with 
ebbs and flows--ebbs and flows of the tide. Now we are seeing 
ebbs and flows on our riverbanks because of discharges from 
Government forcing discharges.
    What we see in the Central Valley are these pulse flows. 
These pulse flows not only go down the river, but they overflow 
into the farmland that is adjacent to it.
    Sometimes it goes into the crops, sometimes forming a pond 
or a puddle or a mudhole that now could be under this very same 
thing.
    So my question is both on navigable waters as well as 
intrastate waters where now EPA and the Corps would have 
jurisdiction over.
    Ms. Darcy. Under current law, we have jurisdiction over 
navigable waters.
    Mr. Denham. Intrastate waters?
    Ms. Darcy. Yes.
    Mr. Denham. What about groundwater?
    Ms. Darcy. No.
    Mr. Denham. Mr. Perciasepe, you talked about pollution.
    Is fertilizer a pollution?
    Mr. Perciasepe. Properly applied, no.
    Mr. Denham. Properly--what about pesticides?
    Mr. Perciasepe. Pesticides require--have to be applied 
according to label, and they would fall under a general permit 
if they apply it on water.
    Mr. Denham. So, again----
    Mr. Perciasepe. But not in--not when a field is flooded, if 
I can think where you are going. That would not be----
    Mr. Denham. That is exactly where I am going. That is the 
concern that a number of our farmers have.
    Mr. Perciasepe. It would not change--that would not change 
because a flooded field during--is not--is not jurisdictional.
    Mr. Denham. Yeah. But if you fallow a field and you are 
unable to plant for a year or 2 years or 4 years and a pond or 
a small--something that is already covered under your own 
definition now gets pesticides or herbicides or fertilizer in 
it, that would be a pollutant; would it not?
    Mr. Perciasepe. Boy. The general permit for pesticide 
application under the Clean Water Act requires the avoidance of 
spraying directly on waters. If there is a crop and you spray 
on the crop, it does not need a permit--or it does not fall 
under that.
    Mr. Denham. So it would fall under that if you were 
spraying your crop and it went into that water--even though it 
is not into a river or a stream, but it was considered an 
adjacent water on a farmer's field?
    Mr. Perciasepe. Water on a farmer's field is not 
jurisdictional.
    Mr. Denham. Not if it is flooding.
    But if it is accumulated water, it is under this 
definition; would it not?
    Mr. Perciasepe. I don't think so.
    Mr. Denham. Well, then, why couldn't you answer Mr. Young's 
question about a pond? I mean, we are talking about farmland 
here.
    Mr. Perciasepe. I would have answered Mr. Young's question, 
but I didn't get a moment. That is all. I don't mean any--
anything by that. He could drain his pond if he wants to. It 
doesn't require a permit from--under the Clean Water Act.
    Mr. Denham. Thank you, Mr. Chairman. I have got a number of 
other questions, but I will wait for the next round.
    Mr. Gibbs. Ms. Napolitano.
    Ms. Napolitano. Thank you, Mr. Chairman.
    And I am glad that we have such great agencies that help 
our communities, especially in California, where we really need 
you.
    Deputy Administrator Perciasepe, it was indicated that the 
proposed ruling does not impact ephemeral waters that may exist 
only when the rainstorms occur, especially like in southern 
California.
    But the concern specifically is, if the water that may fall 
as rain is temporarily captured in groundwater retention areas, 
would that water be classified as jurisdictional?
    And this is really an important issue because of the 
drought and the fact that we are trying every methodology to 
capture more water and infuse it back into the aquifer.
    Mr. Perciasepe. First of all, we explicitly make sure to 
mention that groundwater is not included here. So--but, second, 
there is no change from the existing law. So if it goes back--
--
    Ms. Napolitano. Well, that is for groundwater. I am talking 
about captured water for replenishment.
    Mr. Perciasepe. Right.
    So if this activity is currently going on, whichever way it 
is, we are not changing any existing jurisdiction in that 
regard. So we want to encourage, you know, good capture and 
recharge.
    Ms. Napolitano. Well, there is so little rainfall in 
California, the episodes may be very few and far between.
    Mr. Perciasepe. Yes. I think both of us are pretty familiar 
with the----
    Ms. Napolitano. Thank you.
    And, also, does the wastewater exemption clearly include 
water recycling projects? Is there or should there be a clear 
exemption granted for water recycling projects, especially in 
the Western States where the drought is so critical?
    Mr. Perciasepe. So we don't think water recycling projects 
that are existing today are covered, and we are not trying to 
change that.
    But--so if it is not regulated today, it won't be regulated 
under this rule. But if your folks have comments on this so 
that we can be clear about that, we would work on that.
    Ms. Napolitano. Well, we certainly do hope that we would be 
able to clarify that, because this is one of those issues that 
is not going to be ignored in southern California or in 
California or the Western States.
    The other area that I have a concern about is the 
stormwater discharge regulations that are going to be imposed 
on communities by EPA.
    Mr. Perciasepe. Stormwater?
    Ms. Napolitano. Yes. The discharge going into the 
stormwater and catch basins going down to the ocean.
    Mr. Perciasepe. So under another part of the Clean Water 
Act, areas that have stormwater runoff are required to get a 
permit and--under the--under section 302 of the Clean Water 
Act.
    And most of them have those permits that require either 
green infrastructure or some other maintenance activities to 
make sure that pollutants are minimized, but there is no change 
to that in this rule.
    Ms. Napolitano. OK. Well, I may want to clarify that later, 
if I may----
    Mr. Perciasepe. OK.
    Ms. Napolitano [continuing]. Because there is an issue that 
some of the cities have raised concern--it is an unfunded 
mandate for them to be able to ensure that nothing--no 
contaminants go into the drain systems for stormwater release.
    Mr. Perciasepe. OK. We are--I am happy to follow up with 
you on that, but we are not trying to change the stormwater 
rules in this regulation. But if there are issues with 
stormwater, I would--I would----
    Ms. Napolitano. If you wouldn't mind, yes.
    And I certainly want to thank Ms. Darcy. Your folks are 
tremendous in my area. They work with all my agencies, and we 
have been able to clarify and work forward on many of the 
issues that have--issues in my area.
    Thank you, Mr. Chair. I yield back.
    Mr. Gibbs. Just some housekeeping.
    I ask unanimous consent that Mr. Duncan from Tennessee, who 
is not on this subcommittee, be included at today's hearing.
    Without any objection, so ordered.
    Mr. Mullin.
    Mr. Mullin. Thank you, Mr. Chairman.
    And thank you both for being here. I know we have met 
actually on separate occasions, not always on the best terms, 
but we are all fighting for the same thing, hopefully, this 
country and the right to still be entrepreneurs.
    I think what the biggest fight is here, though, is that we 
see, as business owners, as farmers--as I sit in front of you, 
I am farming the same land that now is the fourth generation. 
And it seems like every time we turn the corner what we are 
doing is we are asking more and more permission to just simply 
do the same job that we have always done.
    I think you are going to find it very hard to find somebody 
that has got more interest in their water than the person that 
is on that land since before statehood, but the way the 
definition is written with navigable waters, I am finding it 
very hard to understand, ma'am--and maybe you can clear it up 
for me--how a stream gets into that.
    I may be just a simpleminded individual from Oklahoma that 
has been blessed enough to be able to be a congressman. 
Navigable waters would be at least something you could put a 
canoe on.
    Ms. Darcy. Congressman, navigable waters, since the 
inception of the Clean Water Act, had a great deal of attention 
and litigation as well as court decisions.
    Mr. Mullin. I am well aware of those. But I am just trying 
to figure out why you guys feel like you have to come out with 
clarification when it is pretty clear itself and what we are 
doing is we are going farther up the streams and making a 
definition even more confusing and we are taking rights away 
from the States.
    Sir, you had made a comment that you said the State water 
boards, you felt like, was on board with you, if I understood 
that. Because the question that the chairman and Congressman 
Young had asked you was what States support you, and you made a 
statement that the water boards of the States support you.
    Mr. Perciasepe. I said that the--some of the organizations 
that represent States, their water--water associations have 
supported doing a rule.
    Mr. Mullin. Who?
    Mr. Perciasepe. We don't have----
    Mr. Mullin. Because I have got our--the gentleman from 
Oklahoma that is going to be testifying on the second panel, 
and no one contacted them.
    So who is it that you said is supportive of you?
    Because if we are--if we are going to try really taking in 
the waters and having the best interests of the landowners, the 
people who pay the tax to own that land, the people who live in 
that State, wouldn't you think you would take the time to 
comment before you made this, not requiring them to come out 
afterwards and make comments?
    I find it almost laughable when you guys are going to have 
these comments out, which really isn't going to have that much 
impact. You might add a thing or two, but the rule is already 
out.
    You have already made your mind up what you are going to 
do; otherwise, you would have consulted them beforehand. Is 
that not correct?
    Mr. Perciasepe. We did talk to States. I can't say we----
    Mr. Mullin. Who?
    Mr. Perciasepe [continuing]. Talked to every State.
    Well, here is a list of State associations who have asked 
us to do a rulemaking. They don't necessarily support this 
rulemaking yet because we don't know what their position is yet 
and we are going to work with them before we finalize.
    Mr. Mullin. Then, you should have had that before you went 
out with it. That is what I am trying to understand.
    Now, let's go back to the farming just for a second. The 
way I read this is you guys are going to except existing 
permits. It is not going to change existing permits. Is that 
not correct, ma'am?
    Ms. Darcy. That is correct.
    Mr. Mullin. OK. So, now, what about that existing permit? 
What happens--does it stay with the land or does it stay with 
the holder of the permit?
    Say my--say my father--which I am not hoping he does, by 
any chance--but say my father owned the permit and he passed 
away and it had be transferred to myself. Is that considered an 
existing permit still yet?
    Ms. Darcy. If it is applied to the land that it was 
permitted on. But if you are talking about----
    Mr. Mullin. But the land has essentially changed hands; so, 
the permit will change hands, too.
    Ms. Darcy. I believe it goes with the land.
    Mr. Mullin. You believe? Because it doesn't read that way.
    Ms. Darcy. Well, then, that clearly----
    Mr. Mullin. It doesn't read that way at all, and there 
needs to be clarification on that. Because I can tell you I 
have read it and the way I read it is that every time we lose a 
generation and a farm changes hands--which you know farms are 
generational--we are going to lose farms as they happen--as 
this happens.
    Ms. Darcy. Congressman, most agricultural practices are 
exempt from the Clean Water Act.
    Mr. Mullin. Most. Ma'am, there are still permits because 
you had enough worry about it that you put in it that--existing 
permits, existing permits. You--the--it specifically says 
existing permits.
    So we keep using this, that most are exempt. Actually, what 
was first said was--sir, you said that all ag is exempt. Now we 
are to most.
    Mr. Perciasepe. All normal agricultural activities.
    Mr. Mullin. Normal. What is considered normal?
    Mr. Perciasepe. Sir, the plowing----
    Mr. Mullin. Because what I do is plowing.
    Mr. Perciasepe [continuing]. Is considered normal.
    Mr. Mullin. You guys already came into my land and said we 
couldn't spread chicken litter anymore. That was on my 
property.
    You guys came in on my property and said we couldn't spread 
chicken litter anymore, effectively killing the chicken 
industry around for the small business owners. So I don't want 
to hear that anymore about normal.
    Normal is what? How many farms have you been on? How many 
times have either one of you guys worked on a farm?
    Mr. Perciasepe. I went to an ag college, sir.
    Mr. Mullin. What is normal in Washington, DC, sir? There 
isn't one thing in Washington, DC, that is normal, not one.
    Mr. Perciasepe. Well, I am not talking about----
    Mr. Mullin. So I don't want to hear the normal. What I want 
to know is how are we going to protect generational farms.
    Ms. Darcy. Congressman, if there is ambiguity in the 
proposed rule about existing permits and how they will be 
transferred between either the current permit holder or the 
future of that land, I think that is something we need to 
clarify.
    Mr. Mullin. Yes, we do. Please, if you could, get with me 
on some clarification language on that. Thank you.
    Mr. Gibbs. Mr. Garamendi.
    Mr. Garamendi. It is interesting that we ended with chicken 
manure.
    Mr. Perciasepe and Assistant Secretary Darcy, I personally 
thank you for your efforts to clarify a longstanding 
controversial issue that has been with this country for well 
over 40 years now, and that is the application of the Clean 
Water Act.
    You have had a very, very difficult task. Because of the 
Supreme Court interpretations of the law, you have been left 
with the necessity to provide clarification.
    And it is my understanding that this effort, this proposed, 
proposed, rule, is a result of the necessity to clarify the 
application of the Clean Water Act.
    If I am correct, would--am I correct? And could you briefly 
describe--very briefly describe how it is that we came to this 
proposed rule and its purpose.
    Ms. Darcy. Congressman, the purpose of the proposed rule is 
to clarify the ambiguities, many of which resulted from the 
Supreme Court decisions and the Supreme Court directing us to 
develop a rulemaking for this purpose.
    We coordinated between the agencies, EPA and the Corps of 
Engineers, to develop what we think is a proposal that will do 
just that, to give people clarity, hopefully, more efficiency 
in this permitting program, and the ability for people to know 
what is jurisdictional and what is not.
    Mr. Garamendi. So the purpose and the goal is to provide 
clarity?
    Ms. Darcy. Yes, sir.
    Mr. Garamendi. Apparently, that has not yet been achieved, 
at least among the members of this committee and a good portion 
of the public.
    How are you working now, beyond explaining to this 
committee, the process of achieving clarity? We are in the 
midst of a rulemaking. Can you describe to all of us what you 
would expect the public to do if they believe there is 
uncertainty in your regulation.
    Ms. Darcy. Through the public comment period, which now 
goes until October 20th, we would anticipate that concerned 
citizens who have comments on this rule, whether it is not 
clear enough or the definitions aren't what they believe to be 
representative of how we should be regulating waters in the 
United States, we anticipate that to come through the public 
comment process via the Web site set up for public comment.
    We also are having webinars and conference calls with 
interested stakeholders and groups around the country to get 
their input and get their comments that way as well.
    Mr. Garamendi. Mr. Perciasepe?
    Mr. Perciasepe. Well, we are also doing more--we are also 
doing additional specific outreach. And I think one of the 
things we are developing now with the extended time period is 
additional, more focused outreach as well.
    We have met with a lot of people. We have a round table 
with Small Business--with the Small Business Administration 
coming up on June 24th.
    We are going to have a specific project--process with our 
co-regulators at the States in terms of the implementation of 
the Clean Water Act.
    Because once you decide where it is jurisdictional, all the 
implementation--a lot of the implementation takes place at the 
State level as well.
    So we expect to have quite a bit of additional outreach 
through the summer.
    Mr. Garamendi. OK. Does your Web site provide specific 
opportunities for various locations in the country for people 
that are concerned about the lack of clarity in the rule to 
make comments?
    Ms. Darcy. Yes.
    Mr. Garamendi. OK. Can you provide to the committee those 
specific sites and locations?
    Ms. Darcy. Yes, we can.
    Mr. Garamendi. And efforts that you are making to reach out 
to agriculture, chicken growers or whomever, as well as--I 
don't know--wastewater and drainage systems across this--across 
the Nation.
    Finally, I just--it is important that we understand that we 
are in a rulemaking process. You have proposed a rule. Is it 
the final rule?
    Ms. Darcy. No, sir.
    Mr. Garamendi. OK. You--are you committed to listen 
carefully to the objections, some of which you have heard here 
today, others of which I suspect you will hear in your process, 
to take them into account and to modify, where appropriate, the 
ambiguities and to clarify? Is that your commitment, to do 
that?
    Ms. Darcy. Yes.
    Mr. Garamendi. Mr. Perciasepe?
    Mr. Perciasepe. Yes, sir.
    Mr. Garamendi. OK. And you are representing both the Corps 
of Engineers and the EPA. Is that correct?
    Ms. Darcy. Yes.
    Mr. Perciasepe. I am EPA. She is the Corps.
    Mr. Garamendi. I got it.
    Now, it is important for all of us to realize where we are 
in this process. You know, I have got a lot of folks in my 
district.
    I have a large agricultural district. I have got plenty of 
water, like 200 miles of the Sacramento River Valley, including 
the river, and a lot of questions.
    When my constituents come to you with--asking for 
clarification, will you listen to them and will you take that 
under advice and, if appropriate, make modifications?
    Ms. Darcy. Yes, sir.
    Mr. Garamendi. Now, finally, clarification is one thing. 
There is the law and there are certain thresholds that you will 
have to follow, I suspect.
    That then becomes a court question, is that correct, a 
question for the court to answer?
    Ms. Darcy. As to whether the rule complies with the 
underlying law? Yes, ultimately.
    Mr. Gibbs. Your time's up.
    Mr. Garamendi. Mr. Chairman, thank you very much.
    Mr. Gibbs. Mr. Meadows.
    Mr. Meadows. Thank you, Mr. Chairman.
    Thank you both.
    I do want, Ms. Darcy, to give you a chance to respond in 
terms of those permits that supposedly transfer. I assume you 
have counsel here. I would give you a chance to revise your 
statement because I can tell you, from real experience, I don't 
think that your testimony was accurate.
    If you have got counsel in terms of if there is a transfer 
of lands, transfer of permit, you know, perhaps you want to do 
that.
    Is that your counsel leaving?
    Ms. Darcy. No.
    Mr. Meadows. OK. All right. Well, you can get back to the 
committee.
    Ms. Darcy. OK.
    Mr. Meadows. I have got limited time. But it is not 
accurate, and I would just encourage you to get together and 
perhaps change that. But let me go on.
    Ms. Darcy. As I responded to Congressman Mullin, that if it 
is not clear, we need to make it clear. And maybe I need to be 
clear.
    Mr. Meadows. Well, it is clear that it doesn't transfer. 
And so--and your counsel's nodding his head ``yes.'' So I would 
just encourage you to revise your statement.
    The other part of that is we are implementing these rules 
for the health and safety of the American people. Is that 
correct?
    Ms. Darcy. Yes.
    Mr. Meadows. OK. So, Mr. Perciasepe, do you have adequate 
funding to make sure that the current rules and regulations 
that we have are implemented and carried out to provide for 
that health and safety, current funding? Yes or no? Do you have 
adequate funding?
    Mr. Perciasepe. Yes.
    Mr. Meadows. For the current regulations?
    Mr. Perciasepe. The current--the one on the books?
    Mr. Meadows. Everything that is on the books, without a 
change.
    Mr. Perciasepe. Yes.
    Mr. Meadows. So everybody should be safe today?
    Mr. Perciasepe. I am not exactly sure what--I mean, we 
implement a lot of different laws that Congress has passed, 
but----
    Mr. Meadows. OK. Well, let me go on further, then.
    With this rule, any rule that an agency makes is really for 
the sole purpose of carrying out the intent of Congress' law. 
Would you both agree to that?
    Ms. Darcy. Yes.
    Mr. Meadows. OK.
    Mr. Perciasepe. Yes.
    Mr. Meadows. So since the administration came up with this, 
at what point did someone in the administration realize that 
the intent of Congress under a previous law was not being 
carried out?
    Who made that decision, that the original intent of 
Congress when they passed the Clean Water Act is not being 
carried out? Who made that decision?
    Ms. Darcy. Well, the purpose for doing this rule is to 
provide clarity on what we think, as a result of the Court 
decisions, we needed to do.
    Mr. Meadows. OK. So it is your agencies that decides the 
intent of what Congress originally passed as law?
    Mr. Perciasepe. Well, let me just----
    Mr. Meadows. Because I am a--I am part of a body of 435 
people, and every day I am confused as to the intent of this 
body.
    So it is amazing how somebody at your agency could figure 
out what the original intent of those who passed the law would 
be.
    Mr. Perciasepe. I think what is--what we were responding to 
is decisions that were made in the past that went to the 
Supreme Court.
    And the Supreme Court has a number of different positions 
or opinions that they have issued, and what we have done, 
looking at those opinions of the Supreme Court which have come 
out in the last decade, that the existing regulations that we 
had on the books from the 1970s need to be modified.
    Mr. Meadows. All right. So you are ignoring Justice Alito's 
concurring opinion, then, because he said that, really, 
Congress needs to clarify what the waters would be. And so you 
are taking Justice Kennedy's sole opinion and ignoring the 
other four justices?
    Mr. Perciasepe. Well, I----
    Mr. Meadows. So who is----
    Mr. Perciasepe. I believe--I believe the chief justice has 
opined on the fact that the--that the executive branch should 
do something about this.
    Mr. Meadows. And that Congress needs to weigh in as well.
    Mr. Perciasepe. No. I think Justice Roberts said the--that 
the executive branch----
    Mr. Meadows. So you are taking----
    Mr. Perciasepe [continuing]. Has had an opportunity to do 
that.
    Mr. Meadows. So you are taking Justice Kennedy's and 
Roberts' opinion?
    Mr. Perciasepe. Well----
    Mr. Meadows. OK. I think my point is made.
    And, really, the whole point is that Congress should be the 
one that is fixing that, not administrative law, because I am 
very concerned that you continue to make rule after rule after 
rule and arbitrarily decide what is good for the American 
people when there are 435 in this body--elected officials--to 
make that decision. Would you not agree?
    Mr. Perciasepe. I don't agree that it is arbitrary, because 
I think we interpreted the law that Congress passed in 1972. We 
put out those rules back in the 1970s.
    Those are the rules that the Congress--the Supreme Court 
never said they were unconstitutional or the law that the 
Congress passed was unconstitutional. They just said----
    Mr. Meadows. So you just passed----
    Mr. Perciasepe [continuing]. The executive branch----
    Mr. Meadows [continuing]. Unclear rules and we are just 
clarifying it, is what you are saying.
    Mr. Perciasepe. Well, people brought a case and it went to 
the Supreme Court. The Supreme Court said we should modify.
    Mr. Meadows. Let me close because I am out of time.
    A little over 30 days ago I brought up with you, Mr. 
Perciasepe, an issue with contamination in my district. I have 
yet to hear from you. Have you checked into all of that?
    We have gotten no response from you. And if you are really 
concerned about the health and well-being of the American 
people, I would have thought that a followup phone call with 
egregious violations within the EPA would have been 
appropriate. Wouldn't you?
    Mr. Perciasepe. Yes, sir.
    Mr. Meadows. OK. When can we expect a response from you and 
get that cleaned up?
    Mr. Perciasepe. You will get a--you will get something from 
me before the end of the week.
    Mr. Meadows. Thank you, sir.
    I will yield back.
    Mr. Gibbs. Mr. Jolly.
    Mr. Jolly. Thank you.
    Assistant Secretary Darcy, you mentioned that this was the 
administration's proposal. Is that correct?
    Ms. Darcy. Yes.
    Mr. Jolly. Who else within the administration has had input 
on this?
    Ms. Darcy. Well, it was developed with EPA and the Army 
Corps of Engineers.
    Mr. Jolly. I understand that.
    But you--you deferred, then, to call it the 
administration's proposal.
    Has somebody from the Domestic Policy Council been involved 
in the creation of this proposed rule?
    Ms. Darcy. No. But the Office of Management and Budget has 
reviewed the proposed rule.
    Mr. Jolly. From a policy perspective, has anybody from the 
White House been involved in this proposed rule?
    To refer to it as the administration's proposal is an 
interesting choice of words. It is as though you deferred some 
of the responsibility of this to the administration 
collectively as opposed to just the EPA or the Corps.
    Ms. Darcy. We are part of the administration. So as I have 
stated, this has been also reviewed by the Office of Management 
and Budget, which is an arm of the President and an arm of the 
administration.
    Mr. Jolly. To the extent of your knowledge, was the 
Domestic Policy Council involved at all in the proposed rule? 
Yes or no?
    Ms. Darcy. I don't believe so.
    Mr. Jolly. OK. Is that your understanding as well, Mr. 
Deputy Administrator?
    Mr. Perciasepe. I can't know specifically. But when we do a 
rulemaking jointly or individually as agencies, it goes through 
an interagency review under an Executive order that has been in 
existence since many, many administrations ago.
    And in that interagency review run by the Office of 
Management and Budget, all the agencies get a chance to 
participate and comment on proposals before they go out as a 
proposal.
    So I don't have the details on everybody who may have 
responded or put input into that, but it--opportunity was 
availed to every agency.
    And we actually did some work with the Department of 
Agriculture to try to clarify conservation practices that would 
be not--be clear that they are not falling--they would not be 
affected by this rule.
    Mr. Jolly. So in drafting the proposed rule, was there any 
contribution of language from the White House?
    Mr. Perciasepe. I don't have any specific information. I am 
put--you know, interagency includes the Department of Energy, 
everyone else.
    Mr. Jolly. OK. So you also mentioned that this is a result 
of some confusion from the Supreme Court decision. Is that 
correct?
    Ms. Darcy. Yes.
    Mr. Jolly. OK. You seem to rely on Justice Kennedy's 
significant nexus definition, though, as having provided some 
clarity.
    Why the need to expand on his definition? Why not just take 
it as written, if you are relying on that?
    Mr. Perciasepe. Well, I think in our definition we did 
include significant language from Justice Kennedy, but we also 
recognized that some--we wanted to make it clear that some--in 
addition to that, we wanted to make it clear that some 
activities and waters were not going to be included.
    We talked about the ditch already. So we wanted to clarify 
that in the rulemaking, that, you know, dry--ditches that are 
in these--roadside ditches types of ditches would not be 
included----
    Mr. Jolly. OK.
    Mr. Perciasepe [continuing]. As an example, or groundwater 
or any number of other things. So were not specified in his 
definition.
    Mr. Jolly. The curiosity is because, Assistant Secretary 
Darcy, in your written testimony today, you refer to the 
confusion created by regional application.
    And I find your written testimony interesting because it is 
as though the Corps embraced regional decisions as being 
closest to the community, best understanding the issues of the 
community following SWANCC and Rapanos, and, yet, now either 
the Corps, the EPA or the administration broadly is stepping 
away from that regional application, because in your written 
testimony it is now suggesting that what was the answer, to use 
regional application, actually created confusion, and that is 
now why you are issuing this.
    Ms. Darcy. Well, there will be regional distinctions 
between other waters, but in order to have more clarity 
overall, I think that the clarity that this rule will provide 
will give direction to each of our regions as well as our 
divisions and our districts about how to apply this overall.
    Mr. Jolly. OK. And the last question.
    Part of the efficiency it says that you will be creating is 
by reducing documentation. Can you explain that.
    I think that is the heart of the concern of a lot of people 
who have concerns within their district, that now this will be 
a less-documented, less-justified, less-explained 
decisionmaking authority coming from Washington and, in fact, 
the regional office will now have less ability to address 
specific regional concerns.
    Ms. Darcy. An example of less documentation would be in the 
instance of the definition of tributaries, that people will now 
know that a tributary is a jurisdictional water of the United 
States.
    Previous to this rule, there were instances where we would 
have to go out on the ground to make a determination as to 
whether a tributary was actually a navigable water.
    So, in this instance now, we have defined tributary so an 
applicant or the Corps will not have to go out and look and 
say, ``OK. Yes. It is a tributary.''
    So that is one piece of the documentation that will be 
alleviated by this rule.
    Mr. Jolly. And you are confident that streamlining is a 
better system?
    Ms. Darcy. I do. I do.
    Mr. Jolly. All right. Thank you very much. I appreciate it.
    Mr. Gibbs. Mr. Rice.
    Mr. Rice. I want to thank you all for being here today.
    I have certainly learned a lot. I think the problem here is 
just the expansion of the--of the bureaucratic authority here 
and the stifling effect it has on our economy and our freedom.
    And I wasn't here in 1972, but I sure think we are 
regulating as waters of the United States things that would not 
have been considered in 1972.
    And everybody's very fearful that this new rule is an 
attempt at further expansion, and particularly with the 
administration's expansion of environmental protection in other 
areas currently.
    I look at this list of--I take it the purpose of this rule 
is to more clearly define what the waters of the United States 
are. Correct?
    And then I am looking at the proposed definition here, and 
there are six defined categories. And then, on the seventh, it 
says, ``On a case-by-case basis, other waters, including 
wetlands, provided that those waters have a significant nexus 
to a water defined in paragraphs 1 through 3 of this section.''
    And then, as you said earlier, the word ``significant'' is 
defined. And it says, ``The term''--you know, that is where 
the--that is where the play comes in here, what does 
``significant'' mean.
    ``The term `significant nexus' means that a water, 
including wetlands either on or in combination with other 
similarly situated waters in the region, significantly affects 
the chemical, physical or biological integrity of the water.'' 
Is that correct?
    Ms. Darcy. Yes.
    Mr. Rice. All right. So you are defining ``significant'' as 
whatever is significant. Right? You are saying that it has to 
have a significant connection. It has to have a significant 
effect.
    Ms. Darcy. Yes.
    Mr. Rice. Well, how does that clarify the rule, I mean, at 
all? Who determines--who determines what significant effect of 
chemical, physical or biological integrity? Who makes that 
determination?
    Ms. Darcy. That would be a determination that would be made 
by a regulator on the ground.
    Mr. Rice. So either the EPA or the Army Corps. Right?
    Ms. Darcy. Or the Army Corps.
    Mr. Rice. So what you are saying, then, is that a Federal--
federally controlled body of water is anything that we 
determine is significant?
    Ms. Darcy. It has----
    Mr. Rice. That is very clearly what this rule says. And 
even if you don't read it that way, other people get involved 
in this, other groups get involved in this, and they want this 
enforced to the letter of the law. Am I correct? These outside 
groups can bring lawsuits based on this proposed rule. Right?
    Ms. Darcy. Yes.
    Mr. Rice. So----
    Ms. Darcy. Well, the final rule.
    Mr. Rice [continuing]. If they determine that it has some 
significant effect, then they can hold up commerce, they can 
invade our freedom further. I mean, that is the way I see this.
    Here is what worries me. All this expansion of authority 
absolutely affects commerce. The people making these decisions 
have no skin in this game. There is no cost to them.
    And what I worry about is we make ourselves less and less 
competitive in the world with every one of these additional 
rules, and I don't see this rule clarifying anything.
    I mean, you are saying a water is federally controlled if 
it is significant and it is significant if we determine it is 
significant. So I don't see that clarifies anything. And that 
goes right to the crux of the rule.
    So here is my question to you. Do y'all have kids?
    Ms. Darcy. No.
    Mr. Perciasepe. I do.
    Mr. Rice. OK. You got kids? You got grandkids?
    Mr. Perciasepe. Not quite yet. My daughter's getting 
married next week.
    Mr. Rice. Here is what I am worried about--because I have 
got kids, too. I am worried that, when these kids get out of 
college--because we are telling them, ``Go to school and get a 
great education''--your grandkids get out of college, that we 
are going to so stifle our economic freedom here that there is 
not going to be anything for them.
    I am worried that they are going to have less quality of 
life rather than better quality of life because of these rules.
    I think, you know, everybody certainly wants to protect our 
groundwater, but I think we have gone so far in doing this that 
the marginal cost is so much greater than the marginal benefit.
    And I would hope that, when you actually--OK. I hear you 
say, ``These aren't final rules. We are just putting this out 
for discussion.'' Well, my opinion is this doesn't clarify 
anything. I think my office could come up with a better draft 
than this.
    Mr. Perciasepe. Can I just add a couple of points?
    Mr. Rice. Sure.
    Mr. Perciasepe. Because I-- you are on to the issue we are 
trying to deal with. And I just want to point out that earlier 
on in the definition section it says notwithstanding whether 
they meet the terms of the following paragraphs, including 
number 7, these things are excluded.
    And so it has a list that we have talked about a number of 
times already, you know, some of the ditch issues----
    Mr. Rice. OK. You have specifically excluded a few things. 
I understand that.
    Mr. Perciasepe. So then, when you get into the rivers and 
the streams, the--there is a--there is a definition in here 
that, if it doesn't have a normal bank--and these are defined 
in the science of hydrology--a bank or a streambed or a high--
ordinary high water mark, then it is not included.
    So the--if it--so, at some point, you know, whether--there 
has to be enough water occasionally in there. You know, even 
seasonally, it is even--even--you know, all the members of the 
Supreme Court pretty much agreed with there is a seasonal 
component to this.
    So there are--and for it to be a wetland--somebody was 
mentioning earlier about water flowing out of a pool and across 
the yard and into something else. Well, if it isn't a wetland, 
if it doesn't exhibit the hydric soils or the----
    Mr. Rice. Look----
    Mr. Perciasepe. But I am just pointing out that there are 
other factors that are involved as to whether or not----
    Mr. Rice. OK. And here is--just from a big-picture 
perspective--and I am way over my time--I understand other 
factors and exclusions and all that, but here is where we are.
    It takes 15 years to get permission to dredge the Port of 
Miami, which has been dredged umpteen times before. It takes--
is going to take 5 years to get permission to dredge the Port 
of Charleston, which has been in a constant state of being 
dredged for the last 20 years. It takes 10 years to get 
permission to build a road.
    We can sit here and dance on the head of a pin for days, 
and it doesn't change the fact that our regulatory expansion is 
completely out of control and we need to be reining it in 
rather than continuing to grow it.
    Thank you very much.
    Mr. Gibbs. Mr. Webster.
    Mr. Webster. Thank you, Mr. Chairman, for having this 
hearing.
    I do have one question of EPA.
    How is EPA planning to distinguish between groundwater and 
shallow subsurface connections?
    Mr. Perciasepe. First of all, I----
    Mr. Webster. I mean, I am asking that because Florida is 
kind of a--it is a unique State in a lot of ways. I mean, most 
of Florida is a wetland and the water is close to the surface.
    Anyway, what do you think?
    Mr. Perciasepe. We are trying to stay out of groundwater 
with this rule. So if we are not achieving that, that is--I 
hope we will get some comment on that, because we are trying to 
exclude groundwater from being considered.
    We are also trying to make sure that, you know, drainage is 
not included as well. So----
    Mr. Webster. But in staying out of it, don't you have to 
distinguish between the two?
    Mr. Perciasepe. I--I--well, one--you are talking about a 
constructed underground system? I am not----
    Mr. Webster. Well, just--there is shallow subsurface 
connection, and I assume that that is not the same as 
groundwater.
    And what I am asking is: Will there be some sort of 
distinction between the two?
    Mr. Perciasepe. There--there obviously is. I am just going 
to read from the definitions. ``Excluded from this is 
groundwater, including groundwater drained through subsurface 
drainage systems.'' That is excluded. So there----
    Mr. Webster. So would--would pollutants introduced into a 
shallow subsurface connection be in need of a permit in order 
to do those discharges?
    Mr. Perciasepe. I don't know the--it would be improper for 
me to try to answer, not knowing the issues.
    I mean, you can inject--you can inject things into the 
ground for disposal, but it does require a permit under the 
Safe Drinking Water Act.
    If you are disposing pollutants or other things into the 
ground, there are--there are--there are places that do this all 
over the country, but they--they do require a permit under the 
Safe Drinking Water Act.
    Mr. Webster. OK.
    Yield back.
    Mr. Gibbs. Mr. Massie.
    Mr. Massie. I just want to start with a commonsense 
question. I think it is common sense. This comes from my 
homebuilders.
    But, first, let me ask: What is the cost of implementing 
this new rule? Just quickly give me a range.
    Mr. Perciasepe. We--our economic--our draft economic 
analysis, which is out for public comment, estimates between--I 
can look up the exact numbers, but somewhere between $100 
million and $200 million.
    Mr. Massie. $100 to $200 million.
    So are my homebuilders going to have to get more permits or 
fewer permits after this rule?
    Mr. Perciasepe. This is based on----
    Mr. Massie. Or do the permits just get more expensive?
    Mr. Perciasepe. This is based on the observation that 
Assistant Secretary Darcy said earlier, that when we went back 
and looked at the jurisdictional determinations made under the 
2008 guidance, we saw that maybe about 3 percent would 
increase.
    Mr. Massie. So you are going to increase the jurisdiction 
of the EPA and the Army Corps of Engineers?
    Mr. Perciasepe. No. These would be because of the----
    Mr. Massie. And so that is going to lead to more cost.
    Here is my commonsense question. There is a whole industry 
that tries to deal with these regulations, and I know you spend 
a lot of your time and resources and money, which is taxpayer 
money, trying to protect the environment and our waterways.
    Wouldn't it be more effective just to set the guidelines 
for the homebuilders to follow and not require them to get 
permits?
    Wouldn't that be more cost-effective, to go back to the 
fundamental principle in this country that you are innocent 
until proven guilty?
    Why don't we assume that they are good actors until you 
find out otherwise? Why does everybody have to ask ``Mother, 
may I?'' to the EPA and the Army Corps of Engineers if they 
just want to build a home for somebody?
    Mr. Perciasepe. Well, I would--I would say that, if--well, 
first of all, we don't expect the jurisdiction to--we are----
    Mr. Massie. I am done with that question.
    Mr. Perciasepe. OK.
    Mr. Massie. What about the idea of just----
    Mr. Perciasepe. The permit----
    Mr. Massie [continuing]. Saying the rules and, if the 
homebuilders abide by the rules----
    Mr. Perciasepe. The permit that they would need would be 
the authorization to discharge pollutants or fill into the 
water.
    Mr. Massie. Yeah. I mean, I don't----
    Mr. Perciasepe. And if they don't--if they don't do that--
--
    Mr. Massie. The question here is: If they don't discharge 
pollutants, why do they need a permit?
    Mr. Perciasepe. They don't.
    Mr. Massie. OK. So why are my homebuilders waiting for 
permits?
    Mr. Perciasepe. Because they want to--they want to fill 
in--I am guessing because they want to fill in----
    Mr. Massie. But their fill is not going to cause pollution; 
otherwise, you wouldn't give them a permit.
    Mr. Perciasepe. No. The Clean Water Act defines ``fill'' as 
a--as a----
    Mr. Massie. OK. But why----
    Mr. Perciasepe [continuing]. Requirement----
    Mr. Massie. If that fill is not harmful and you set up the 
guidelines and they abide by those guidelines, why do they need 
a permit?
    I am just--what I am testing here is the whole assumption 
that you are--that I think has been promulgated here, is that 
these guys are bad actors and you need to rein them in and they 
have got to get your permission before they can do anything.
    Mr. Perciasepe. We don't think they are bad actors. We 
think they do amazing things.
    Mr. Massie. I don't think they are either. They are 
building homes, but they can't do it in my district because 
they are waiting months for permits and some of this is not 
even developable.
    I want to go to Agriculture here. Why did you seek to 
narrow down to 56 the number of agricultural farming practices? 
Why can't we just assume the farmer knows how to farm?
    Ms. Darcy. Congressman, in the interpretive rule that 
accompanied this proposed rule, we worked with the Department 
of Agriculture and the Conservation Service to list 56 
practices that are currently on the table----
    Mr. Massie. So you are working with organizations in 
Washington, DC. That is great.
    But why don't we trust the farmers back home that they know 
what the practices are and assume there might be more than 56 
things you have to do to farm?
    Ms. Darcy. Congressman, those 56 things are ongoing 
conservation practices that we are saying are exempt from the 
Clean Water Act that we have not said before.
    So these are additional new things that have come into 
being since the passage of the Clean Water Act----
    Mr. Massie. Can you tell me what is not exempt now?
    Ms. Darcy. What is not exempt?
    Mr. Massie. Yeah. What might a farmer do that is not 
exempt?
    Ms. Darcy. I could not tell you right now what is not 
exempt because most of the agricultural practices are exempt.
    Mr. Massie. Here is one thing that I am worried about.
    I am a farmer. I farm. I have got ditches. They have all 
got high--I mean, I could find a bed, a high water mark, a bank 
on these ditches.
    Isn't that--how is that compatible with excluding ditches 
and then saying, if it has these features, that it is under 
your jurisdiction?
    Ms. Darcy. We have specific exemptions in the proposed rule 
for ditches.
    Mr. Massie. Do those exemptions extend to somebody who is 
spraying their fields and they have got a grassy ditch, for 
instance, that may flow only occasionally and they are using 
approved ag chemicals?
    Ms. Darcy. That is exempt from the Clean Water Act because 
it is an ongoing agricultural practice.
    Mr. Massie. That is comforting to hear, that none of my 
farmers will have to get a permit--this is what you are saying. 
Correct?--to spray their fields from either the Corps of 
Engineers or the EPA?
    Ms. Darcy. That is correct.
    Mr. Massie. All right. Thank you. My time's expired.
    Mr. Gibbs. Mr. Davis.
    Mr. Davis. Thank you, Mr. Chairman.
    Thank you, Assistant Secretary Darcy, Deputy Administrator 
Perciasepe.
    I have a couple questions.
    Number one, the administration has committed to 
streamlining and expediting permitting for major infrastructure 
projects that move energy.
    However, it seems that the EPA waters of the U.S. rule will 
do just the opposite because it creates new subcategories of 
water that could be subject to Federal jurisdiction.
    Is there any way for the EPA, Mr. Deputy Administrator, to 
guarantee that this rule will not further delay permitting for 
energy infrastructure projects?
    Mr. Perciasepe. Our view is that we are not expanding the 
jurisdiction. So under the--and we are actually excluding some 
things that may be involved with some energy development 
projects. So, I mean, I don't see how this will add to the 
burden.
    Mr. Davis. OK. I am going to get to a few more questions 
that I think may get back to this.
    We are a little frustrated by what could be the regional 
approach to some of the permitting issues, and I am going to 
give you a couple examples in just a second.
    But you also mentioned, Mr. Deputy Administrator, that 
the--in your testimony the EPA and the Corps then worked with 
the U.S. Department of Agriculture to ensure that concerns 
raised by farmers in the ag industry were addressed in the 
proposed rule.
    Did you also consult with the EPA Science Advisory Board, 
which now includes, due to the Farm Bill, an amendment that I 
introduced, agriculture interests?
    Mr. Perciasepe. Science Advisory Board, did you say?
    Mr. Davis. Yeah.
    Mr. Perciasepe. The Science Advisory Board will be looking 
at this proposed rule before it goes final, but they haven't 
completed their review. And we haven't set--they are currently 
reviewing some of the science documents that go along with this 
as well.
    And one of the reasons, in addition to stakeholder 
requests, that we have extended the time period for public 
comment is we wanted to complete the Science Advisory Board's 
review of some of the science documents so that that review is 
out there at the same time as the rulemaking docket is still 
open.
    Mr. Davis. All right. Another quick question on the energy 
side that I forgot to ask.
    Assistant Secretary Darcy, can you give me any idea how 
other agencies and industries, you know, subjectively determine 
what might actually be covered by a Clean Water Act permit?
    Ms. Darcy. Under the proposed rule? I mean, how would they 
comment?
    Mr. Davis. Yeah. Under the proposed rule.
    Ms. Darcy. Under the proposed rule, anyone who believes 
that they would be impacted by the proposed rule can comment to 
us.
    Mr. Davis. So through the comment process they can come in 
because they might believe that they could be impacted, could 
be required to maybe self-report, work with their regional 
offices, et cetera, on an energy infrastructure project?
    Ms. Darcy. Yes. Because then they would want to know if 
they would be subject to the rule. So, yes.
    Mr. Davis. All right. In your proposed rule, it mentions 
that waste treatment systems are not included in this--in the 
definition of the proposed rule of the Clean Water Act of 
waterways. Right?
    Ms. Darcy. Yes.
    Mr. Davis. OK. Does that change the EPA's jurisdiction over 
aboveground septic discharge systems that many in my district 
actually have to utilize because of either soil-type issues or 
rural living arrangements?
    Mr. Perciasepe. I don't--oop. I turned it off when I 
thought I was turning it on.
    I don't believe EPA--EPA does not regulate septic tanks.
    Mr. Davis. You may want to check with your--you may want to 
check with your regional office that covers my State of 
Illinois because aboveground septic discharge systems are being 
regulated by that regional office under an NPEDS permit.
    And that is part of my frustration of maybe what you see 
and what you hear in Washington isn't getting to your regional 
offices.
    Because members of ag interests in the State of Illinois 
met with the U.S. EPA just very recently--it may have been 
yesterday or this morning--on what are the requirements for 
sep---aboveground septic discharge permits.
    And it said that it is the response--the EPA in the region 
said it is the responsibility of the potential discharger to 
determine whether or not his or her system might discharge into 
a water of the United States.
    And it said even during this self-determination--this comes 
from the EPA's guidance, Frequently Asked Questions on EPA's 
NPEDS general permit for new and replacement surface 
discharging systems in Illinois, an FAQ sheet.
    I will go right to the point. It says, ``If so, even though 
pollutants would not be carried to waters of the United States 
unless your area experienced an exceptionally wet season, you 
are still required to obtain coverage under a permit. Only if 
you are sure that your system would not discharge pollutants to 
a water of the United States or a conveyance that leads to a 
water of the United States should you forego obtaining a permit 
for a surface discharging system. If you do not obtain a 
permit, but actually discharge, you may be subject to an 
enforcement action under the Clean Water Act.''
    This gets to the point of the rule, sir. It specifically--
it specifically says wastewater discharge systems will not be 
subject to the proposed rule and the change, but it--your 
regional office is basically saying ``Self-report. However, we 
may fine you if you are wrong,'' because it may actually 
discharge--according to their own--their own rule or their own 
guidance, it may discharge into a navigable waterway.
    Can you see where we have some problems here when it comes 
to what you are talking to us about and then what goes back to 
the region and then has a tremendous impact on the families 
that I represent and that all of us represent here in this 
country?
    Mr. Perciasepe. Well, I am at a loss to determine whether 
or not, I mean, first of all, this is a proposed rule so the 
regions are probably not dealing with it now anyway, but we 
think the waste treatment exclusion has been in existence 
before this rule. We are trying not to change it.
    So I can't answer you here, and I will find out for you why 
something like that doesn't fall under the existing waste 
treatment exclusion. I just don't know the answer to it.
    Mr. Davis. Well, thank you, and I do appreciate your 
willingness to do so and I am going to end by saying this, 
because I am out of time: Many rural communities in Illinois, 
some of the poorest areas in Illinois have to rely upon an 
aboveground septic discharge system.
    And it is an issue where they can't be worried about the 
EPA determining whether or not there is going to be an 
enforcement action based on this NPDES permitting process, that 
seems to be so vague and seems to be in direct contradiction 
with the proposed rule.
    So thank you for getting back to me. Assistant Secretary 
Darcy, thank you for your time, too. And thank you to both of 
you for being here today.
    Mr. Gibbs. We are going to conclude this first panel. I 
want to thank you for coming.
    I have to comment, it is really amazing to me and really 
appalling, I guess, that this proposed rule has been put out 
even though the connectivity study hasn't been completed. When 
you hear all the questions and everything, what is the 
jurisdiction, what includes its tributary ditches and all that, 
wetlands, but the study is not done, that is what creates all 
the ambiguity and vagueness here.
    And I think you really need to be concerned about that and 
really take note of the comments that are coming in from this 
hearing, otherwise we are opening up a whole can of worms and, 
I think, a trial lawyer's dream come true with a lot of 
lawsuits and we don't want to have litigation to cause more 
problems, so----
    Mr. Perciasepe. Our objective is to reduce that, as 
Assistant Secretary said, and I appreciate what you are saying 
about the study. I mean, we had the draft study when we did 
this rule and that is one of the things. We promise we will 
not----
    Mr. Gibbs. I don't believe it was peer reviewed, and I 
don't think it has comes to the finalization.
    Mr. Perciasepe. It had two prior peer reviews before it 
went to the SAB. So we can get into that detail. I know you are 
out of time. But we won't finalize the rule without their final 
review.
    Mr. Gibbs. And I know you have been here for a while, I 
hope you can stay and at least hear the testimony of the next 
witnesses because I think they have got some really good 
comments and raise a lot of questions of where we move forward.
    Mr. Perciasepe. We look forward to working with them over 
the next 90 days.
    Mr. Gibbs. Thank you and we will take a couple minutes here 
to get set up for the next panel, too.
    [Recess.]
    Mr. Gibbs. The committee will come back to order. At this 
time, we welcome panel 2, and I am going to yield to Mr. Mullin 
from Oklahoma to introduce the first witness.
    Mr. Mullin. Thank you, Mr. Chairman. And it is a great 
opportunity I have to welcome Oklahoma's own J.D. Strong, who 
is the executive director of the Oklahoma Water Resources Board 
and also a fifth-generation farmer from Oklahoma. He has a very 
unique perspective. He even got his education at the Oklahoma 
State University, which as long as it is in Oklahoma, it is 
pretty good. We keep it at home.
    But, you know, J.D. has a very unique story to tell with 
the challenges at his farm and his family has went through year 
after year after year and the challenges that each generation 
has faced. At the same time, he brings a point of view from the 
State, and it really is important to understand that the State 
has a lot of stake at this.
    And when you have a gentleman that is so deeply rooted in 
Oklahoma and he is in a position and thought of enough in the 
State to be appointed to this position, we should really value 
his opinion. He is bringing it from not only the political 
standpoint but from a personal standpoint.
    So, J.D., it is good to have you here. Wish the hair was a 
little kinder to you, but, you know, you can't have all things 
and have the pie at the same time, right?
    So thank you for being here.
    Mr. Gibbs. I would also like to welcome Mr. Pifher. He is 
the manager of the Southern Delivery System of the Colorado 
Springs Utilities. He is testifying on behalf of the National 
Water Resources Association and the Western Urban Water 
Coalition.
    We also have Mr. Dusty Williams. He is a general manager/
chief engineer for Riverside County, California, Flood Control 
and Water Conservation District. He is also testifying on 
behalf of the National Association of Counties and National 
Association of Flood and Stormwater Management Agencies.
    We also have Mr. Bob Stallman who is president of the 
American Farm Bureau Federation and a Texas farmer that I have 
known for many years. Good to see you, Bob.
    We also have Mr. Kevin Kelly. He is president of Leon 
Weiner and Associates, Incorporated, and also chairman of the 
board of the National Association of Home Builders.
    And we have Mr. Eric Henry. He is president of TS Designs, 
and he is here on behalf of the American Sustainable Business 
Council.
    Welcome, all. And Mr. Strong, the floor is yours to give 
your opening statement.

 TESTIMONY OF J.D. STRONG, EXECUTIVE DIRECTOR, OKLAHOMA WATER 
     RESOURCES BOARD, ON BEHALF OF THE WESTERN GOVERNORS' 
 ASSOCIATION AND WESTERN STATES WATER COUNCIL; MARK T. PIFHER, 
MANAGER, SOUTHERN DELIVERY SYSTEM, COLORADO SPRINGS UTILITIES, 
   ON BEHALF OF THE NATIONAL WATER RESOURCES ASSOCIATION AND 
   WESTERN URBAN WATER COALITION; WARREN ``DUSTY'' WILLIAMS, 
 GENERAL MANAGER/CHIEF ENGINEER, RIVERSIDE COUNTY, CALIFORNIA, 
FLOOD CONTROL AND WATER CONSERVATION DISTRICT, ON BEHALF OF THE 
 NATIONAL ASSOCIATION OF COUNTIES AND THE NATIONAL ASSOCIATION 
  OF FLOOD AND STORMWATER MANAGEMENT AGENCIES; BOB STALLMAN, 
   PRESIDENT, AMERICAN FARM BUREAU FEDERATION; KEVIN KELLY, 
 PRESIDENT, LEON WEINER AND ASSOCIATES, INC., AND CHAIRMAN OF 
  THE BOARD, NATIONAL ASSOCIATION OF HOME BUILDERS; AND ERIC 
    HENRY, PRESIDENT, TS DESIGNS, ON BEHALF OF THE AMERICAN 
                  SUSTAINABLE BUSINESS COUNCIL

    Mr. Strong. Thank you.
    Thank you, Mr. Chairman, Ranking Member Bishop and members 
of the committee for this opportunity to testify before you 
today on behalf of the Western Governors' Association and 
Western States Water Council, a couple of nonpartisan 
organizations, independent organizations representing the 
Governors of 19 Western States.
    I serve as chairman of the Water Quality Committee on the 
Western States Water Council and appreciate this opportunity to 
discuss concerns regarding the Clean Water Act, waters of the 
U.S. proposed rule by EPA and the Corps of Engineers.
    First, we recognize that the EPA and Corps of Engineers 
actions have significant affect on States, not just in the West 
but across the United States; therefore, it is extremely 
important that States be regarded as full and equal partners, 
in fact, as coregulators under the Clean Water Act, as Congress 
intended for both the States and EPA to implement the Clean 
Water Act in partnership delegating much of the authority to 
States to administer those laws as they see fit within their 
respective States.
    And in this particular case, the Western States at least 
are unanimous in their concern for the fact that the States 
were not adequately consulted in advance of this rule being 
proposed. While there were communications, status reports, so 
forth, as coregulators and the ones that will be faced with 
much of the burden and cost of implementing what happens to 
waters of the U.S. across the United States, not being involved 
in that rulemaking process and actually drafting the rule is of 
great concern to the States and, of course, has led to much 
confusion here on the back end of the rulemaking process.
    As we noted repeatedly in our letters from the Western 
States Water Council, waiting until the public comment period 
to solicit State input does not allow for meaningful 
consideration of States views as well as alternative ways the 
States may have for meeting Federal objectives under the Clean 
Water Act.
    We also urge the agencies to recognize the Federalism 
implications of this particular rulemaking, particularly noting 
Executive Order 13132 that requires a higher level of 
consultation with States where Federalism implications do 
impact the States.
    And, in fact, in the preamble to this rule, the EPA and 
Corps of Engineers say, I quote, ``This rule will not have a 
substantial direct effect on the States on the relationship 
between the National Government and the States or on the 
distribution of power and responsibility among the various 
levels of Government.''
    Of course, nothing could be further from the truth because 
the very goal of this rule is to define where Federal 
jurisdiction stops and where State jurisdiction begins. Nothing 
could have more of a direct and substantial impact on the 
balance of power between the Federal Government and the States.
    We reiterate what Governors Hickenlooper of Colorado and 
Sandoval of Nevada as chairman and vice chairman of the WGA 
said in their March 25 letter that the Agency should consult 
with the States individually and through the Western Governors' 
Association in advance of any further action on this 
rulemaking; and would also reiterate concerns that the Science 
Advisory Board that is set up under EPA to help advise this 
rule does not have State representation, yet there is a great 
deal of State expertise when it comes to these matters, 27 
experts on that panel and not one is a State agency scientist 
or expert.
    Finally, let me just jump to my Oklahoma-specific testimony 
with the very little remaining time that I have left and say 
that, on behalf of the State of Oklahoma and not necessarily 
Western Governors' Association and Western States Water 
Council, I reiterate the concerns about coregulators not being 
just stakeholders but, in fact, should have been involved in 
the rulemaking upfront.
    I would also reiterate concerns about getting the cart 
before the horse in terms of not waiting for the connectivity 
report to be finalized which can have a significant scientific 
affect on, I think, informing this rulemaking.
    And so it is encouraging to hear some of the words that 
were expressed today that this will not be finalized until 
then, and yet it is a mystery to me why you would even propose 
a rule without having the full vetting of that scientific 
report that should weigh so heavily on this rulemaking process.
    And lastly, a point that has been made in front of panel 1, 
I think, over and over again: Ambiguity. The point of this 
rulemaking is to ensure some clarity, which is very important 
for the States that have to implement the Clean Water Act 
rules.
    And yet, in our view, at least in the State of Oklahoma, we 
believe that EPA and the Corps of Engineers have simply taken 
an already fuzzy line of jurisdiction and simply moved it in a 
different direction, but it is not less fuzzy than it was 
before. Certainly, it defeats the purpose, I think, of this 
rulemaking process.
    So we look forward to trying to inform and provide 
additional constructive recommendations going forward that will 
hopefully clarify instead of make these decisions more 
ambiguous. At the same time, we think it takes more than a 
couple of 90-day extensions to the comment period in order for 
the States to be able to engage in a very meaningful and 
constructive process of informing this rulemaking.
    Instead, we think what we need is more like a timeout and 
going back to the drawing board. When the train is off the 
tracks, that is really the only way to get it back on in our 
view.
    So with that, I appreciate the opportunity.
    Mr. Gibbs. Thank you.
    Mr. Pifher, floor is yours.
    Mr. Pifher. Thank you, Mr. Chairman, members of the 
committee.
    I would also like to thank representatives from the 
agencies that testified on panel 1 today, because I think they 
constructively added to the dialogue, but some of the 
clarifications they made this morning need to be placed in 
writing and that, I think, would serve all of us very well.
    I am here on behalf of the National Water Resources 
Association which represents urban and rural interests in the 
reclamation States of the West, as well as the Western Urban 
Water Coalition which represents large municipal water and 
wastewater providers and, in fact, serves over 35 million 
customers in the Western United States.
    Both organizations certainly fully support the goals of the 
Clean Water Act; after all, it protects the resource, the water 
which our municipal customers depend upon and our irrigators 
depend upon. So there is no disagreement there.
    That said, though, our members are the ones who plan for, 
design, construct and eventually operate the wastewater and 
water facilities that are so essential in the West, as well as 
stormwater control facilities; and it is our customers who foot 
the bill.
    We believe that the West, especially the arid portions of 
the West, are sort of the Ground Zero, if you will, for the 
impacts of this proposed rule, because we are the ones with the 
dry arroyos and washes that flow only periodically, with the 
ephemeral and affluent-dependent stream systems, with the 
intermittent water bodies and the isolated water bodies and the 
head waters that often flow only in response to precipitation 
events or snow melt.
    So if the rule is going to have an impact anywhere, it is 
the West, and so we are watching this very closely, and on 
first reading, we think this is an expansion of Federal 
jurisdiction. You have now this new category of per se 
jurisdictional waters that didn't exist previously. You have 
some new concepts of what adjacency means. It used to be just 
adjacent wetlands; now it is all adjacent waters.
    You have this neighboring concept which encompasses all 
waters in flood plains and riparian zones, and you have the new 
significant nexus test that we have heard a lot of testimony 
about already. But what that allows the agencies to do is 
aggregate water bodies that individually may be insignificant 
and all of a sudden they become significant.
    So the on-the-ground impact in terms of the membership of 
NWRA and Western Urban, could be substantial and it could be 
very time consuming and costly because it results in the need 
to obtain 404 permits where potentially they weren't necessary 
in the past; even 402 permits, which are our point source 
discharge permits; and certainly 401 certifications from our 
States; and, perhaps most importantly, it can trigger NEPA 
reviews. And for those of us that have built projects, we know 
what that means.
    Let me give you an example. In the last 8 years, I have 
worked on two of the major new western water projects either 
just newly completed or under construction. One is Aurora's 
Prairie Waters Project. It was $600 million-plus. It was a 35-
mile, 60-inch steel pipeline, three pump stations, a water 
treatment plant and some diversions off the Platte River. That 
project was planned, conceived, designed, constructed and in 
operation in 5 years because we were able to avoid pulling the 
404 trigger and avoid a NEPA review as a consequence.
    In comparison, Colorado Springs is now constructing an $800 
million reuse project, very similar to Prairie Waters Project, 
also three pump stations, a treatment plant, in this case, a 
50-mile plus pipeline, and a new diversion outlet from the 
Pueblo Dam. In that case, we couldn't avoid 404, and it took a 
decade just to get through the planning and permitting process, 
let alone the 5-plus years of construction and it was tens of 
millions of dollars in studies and tens of millions of dollars 
in mitigation. So it does make a difference.
    And we are concerned about not only those types of projects 
but also whether there will be any impact on the implementation 
of stormwater control measures. I heard what EPA had to say. I 
think there is obviously grounds for dialogue and discussion 
with them. What about activities where you transfer 
agricultural water out of ditches to municipal entities in 
times of drought?
    Because, again, the arid West is the focal point for 
drought, for fires and post-fire flooding and necessary 
remediation. We need to build new infrastructure, respond to 
all those challenges. It will only become more difficult if we 
have to go through NEPA and permitting each step of the way.
    We are identifying in our written testimony some areas 
where we think a dialogue with the EPA and the Corps will be 
constructive. We fully intend to sit down with them and work 
through some of these issues, and we look forward to a 
resolution that achieves a reasonable balance. Thank you.
    Mr. Gibbs. Thank you.
    Mr. Williams, welcome.
    Mr. Williams. Thank you, Mr. Chairman. I am here today 
wearing two hats. I am representing the National Association of 
Counties, NACo, and also the National Association of Flood and 
Stormwater Management Agencies, NAFSMA, where I currently serve 
as president. We are concerned with the scope of the waters of 
the U.S. definitional proposal. While the proposed rule is 
intended to clarify issues, the proposal is significantly 
broader in scope. It takes Federal jurisdiction well beyond the 
section 404 permit program and has potential impacts on many of 
the other Clean Water Act programs.
    Key terms used in the definition--tributary, adjacent 
waters, riparian areas, flood plains and the exemptions 
listed--also raise important questions. It is uncertain how 
they will be used to implement the section 404 permit program 
effectively. While we appreciate that EPA and the Corps are 
moving forward with a proposed rule rather than a guidance 
document, our organizations have concerns with the process used 
to create the proposal and specifically whether impacted State 
and local groups were adequately consulted throughout the 
process.
    Under Executive Order 13132, Federalism, Federal agencies 
are required to work with State and local governments on 
proposed regulations that have substantial direct compliance 
costs. Since the agencies have determined that the definition 
of ``waters of the U.S.'' imposes only indirect costs, the 
agencies state in the proposed rule that the new definition 
does not trigger Federalism considerations.
    However, the agencies cost-benefit analysis states, quote, 
``Programs may subsequently impose direct or indirect costs as 
a result of implementation,'' closed quote. In addition, we are 
also concerned with the sequence and timing of the draft 
science report and how it fits into the proposed process, 
especially since the document will be used as a scientific 
basis for the proposed rule.
    Because of the complexity of the proposed rule and its 
relationship with the report, the agencies should consider not 
only extending but suspending the current comment period and 
rereleasing the proposal with the updated economic analysis 
after the science-based conductivity report is issued. The 
approach would be welcomed by local governments.
    Both NACo and NAFSMA believe that the proposed rule would 
increase the number of publicly maintained stormwater 
management facilities and roadside ditches that would require 
Clean Water Act 404 permits, even for routine maintenance. 
Whether or not a ditch is regulated under section 404 has 
significant financial implications for local governments.
    Not only is the determination often very difficult, the 
multitude of regulatory requirements under the Clean Water Act 
can take valuable time and cost substantial dollars, both of 
which are extremely significant to local agencies. This puts 
our Nation's counties and flood and stormwater management 
agencies in a precarious position, especially those that are 
balancing small budgets against public health and safety needs.
    And while the proposed rule excludes certain types of 
upland ditches with less-than-perennial flow or those ditches 
that do not contribute flow to waters of the U.S., the key 
terms like ``uplands'' and ``contribute flow'' are not defined. 
Therefore, it is unclear how currently exempt ditches will be 
distinguished from jurisdictional ditches especially if they 
are near waters of the U.S.
    Most ditches are not wholly in uplands, nor do they 
strictly drain in uplands since they are designed to convey 
overflow waters to an outlet. To assist in visualizing some of 
these concerns, I would like to highlight a portion of my home 
county, Riverside County, California, and it should be on the 
screen.
    The blue line shows the current extent of waters of the 
United States. The second map shows the likely extent of waters 
of the U.S. under the proposed rule, a significant increase, 
and not because of flowing rivers or streams but because this 
area is in the arid Southwest. It is facilities like this that 
will lead to the dramatic expansion.
    Further, since stormwater management activities are not 
explicitly exempt under the proposed rule, concerns have been 
raised that manmade conveyances and facilities for stormwater 
management could now be classified as waters for the U.S. This 
would introduce localities to an expanded arena of regulations 
and unanticipated costs in that a locality will have to 
regulate all pollutants that flow into the channel including 
surface runoff rather than at the point of discharge.
    If stormwater costs significantly increase due to the 
proposed rule, funds will be diverted from other governmental 
services, such as education, police, fire, et cetera. Our 
members cannot assume additional unnecessary or unintended 
costs.
    The bottom line is that because of inadequate definitions 
and unknown impacts, our associations believe that many more 
roadside ditches, flood control channels and stormwater 
management conveyances and treatment approaches will now be 
federally regulated. While many of these waters are regulated 
under current practices, we fear the degree and cost of 
regulation will increase dramatically if these features are 
redefined as waters.
    I will be happy to answer any questions, sir. Thank you.
    [The slides accompanying Warren ``Dusty'' Williams' opening 
remarks follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Gibbs. Mr. Stallman, the floor is yours.
    Mr. Stallman. Thank you, Mr. Chairman, Ranking Member 
Bishop for holding today's hearing.
    Farm Bureau has carefully analyzed the proposal that the 
Environmental Protection Agency and the U.S. Army Corps of 
Engineers published in the Federal Register on April 21. We 
have concluded that it broadly expands Federal jurisdiction, 
threatens local land use and zoning authority, and is an end 
run around Congress and the Supreme Court.
    The proposed rule would categorically regulate as navigable 
waters countless ephemeral Drains, ditches and other features 
across the country side. Features that are wet only when it 
Rains and features that may be miles from the nearest truly 
navigable water. The agencies use scientific sounding terms 
when referring to these features, terms such as ``bed,'' 
``bank'' and ``ordinary high water mark'' to give the 
impression that the proposed rule would apply only to features 
that are always wet. However, such terms also define a low spot 
on the land with subtle changes in elevation, land where rain 
water naturally channels as it flows downhill after rain 
storms.
    EPA calls any such feature a tributary. This land is not 
even wet most of the time and it is prevalent in farm fields 
across America. EPA says the rule does not cover ditches. Well, 
EPA has said a lot of things, and its statement about ditches 
is simply not true. The proposed rule would categorically 
regulate all so-called tributaries that ever carry any amount 
of water that eventually flows to a navigable water. That is a 
ditch, in my world.
    There is an exclusion that is limited to a very narrowly 
defined and one might even say mythical subset of ditches that 
are excavated in uplands, i.e., the dry land and drain only 
uplands, the dry land along their entire reach. Over the last 
few decades, the Corps has added more and more plants and soils 
that qualify as indicators so it can classify even more areas 
as wetlands.
    Now, factor in EPA's position that ephemeral Drains, also 
known as low spots, are also waters and not uplands, and you 
begin to see that one would be hard pressed to find a ditch 
that at no point along its entire reach includes waters or 
wetlands. I have been farming for decades. I have been on 
thousands of farms all across this country, and I can tell you 
that ditches are meant to carry water. That is why most ditches 
will be regulated under this rule.
    I should also mention that the agencies proposed to 
regulate waters and land that are adjacent to any newly defined 
water of the U.S., and also add a new category of other waters. 
This could, and probably will, sweep into Federal jurisdiction 
vast numbers of small isolated wetlands, ponds and similar 
features, many of which are not waters under any common 
understanding of that word.
    I would like to show a few examples of the types of land 
features the proposed rule would bring under Federal 
jurisdiction. Farm Bureau members from all over the country 
have been sending us photos of low spots, ditches and soils on 
their land, areas of their land that have the characteristics 
that would allow EPA and the Corps to assert jurisdiction under 
this rule.
    EPA is deliberately misleading the regulated community 
about the impacts on land use. If more people knew how 
regulators could use the proposed rule to require permits for 
common activities on dry land or penalize landowners for not 
getting them, they would be outraged. It is hard to imagine 
that only 1,300 acres would be affected as EPA claims, when we 
have more than 106 million acres of wetlands that are currently 
being used for agricultural purposes, that is defined by USDA.
    In fact, Farm Bureau beliefs that this proposed rule would 
be the broadest expansion of regulatory control over land use 
and private property ever attempted by a Federal agency. It 
takes away land use decisions from State and local governments. 
It goes against the intent of Congress and the Supreme Court. 
And it negates your authority as Members of Congress to write 
the law of the land.
    The bottom line for farmers and ranchers is that the 
proposed rule will make it much more difficult and potentially 
impossible to farm near these land features. If farmers must 
request Federal permits to undertake ordinary farming practices 
on their land, such as pest and weed controls and fertilizer 
applications, and those permits are far from guaranteed, this 
is, in effect, a Federal veto over farmers and ranchers use of 
their land to produce their food, fiber and fuel.
    I will conclude by reiterating that the Clean Water Act 
itself and two Supreme Court decisions have said that there are 
limits to Federal jurisdiction under the law. Rather than 
define where there is a significant nexus to navigable waters, 
the agencies have just hit the easy button and issued blanket 
determinations that entire categories of water and land are 
significant.
    This results in Federal control over State, local and 
private land-use decisions, and it is not what lawmakers had in 
mind when they wrote the Clean Water Act in 1972. I urge 
Congress not to allow this unlawful expansion of Clean Water 
Act.
    Thank you for your time, and I will be glad to answer any 
questions you may have.
    Mr. Gibbs. Thank you.
    Mr. Kelly. Welcome.
    Mr. Kelly. Thank you, Chairman Gibbs and Ranking Member 
Bishop.
    I am a home builder and developer from Wilmington, 
Delaware, and this year I have the privilege and honor of 
serving as chairman of the board of the National Association of 
Home Builders. As builders of communities and neighborhoods, 
NAHB members have a vested interest in preserving and 
protecting the environment.
    Since 1972, the Clean Water Act has played an important 
role in improving the quality of our water resources and the 
quality of our Lives. Despite these successes, there continues 
to be frustration and uncertainty over the scope of the act and 
the appropriate role of the Federal Government in protecting 
the Nation's waters.
    There still is no easy or predictable way to determine if 
certain types of waters are subject to mandates of the Clean 
Water Act. Therefore, to better facilitate compliance and 
improve aquatic environment, the U.S. Corps, and the EPA 
recently issued a proposed rule intended to alleviate 
uncertainty and clarify what areas are subject to Federal 
regulation.
    Unfortunately, and as we have heard today, the proposal 
falls well short of providing the needed predictability and 
certainty. It also fails to follow the intent of Congress and 
Supreme Court precedent. Instead of limiting jurisdiction, the 
proposal unnecessarily increases Federal power over private 
property.
    Moreover, the proposal rule will provide little, if any, 
additional protection because most of the newly jurisdictional 
areas are already regulated at the State or local level. 
Although the agencies claim the rule does not expand 
jurisdiction, this is simply not the case. The rule would 
establish a broader definition of tributaries and include areas 
not currently federally regulated such as adjacent nonwetlands, 
as well as low spots within riparian areas and flood plains.
    Further, due to ambiguous definitions, the Agency would 
retain extensive authority to interpret the scope of the act as 
they see fit. As a businessman, I need to know the rules of the 
road. I can't play a guessing game of, is it federally 
jurisdictional? But that is precisely what this proposal would 
force me to do.
    Additionally, despite the fact that the Supreme Court has 
twice affirmed that the Clean Water Act places limits on 
Federal authority, the proposed rule would assert jurisdiction 
over many features that are remote, carry only minor volumes of 
water or have only theoretical impacts on waters of the United 
States. In essence, the proposal ignores Supreme Court rulings.
    Ultimately, the rule will put more areas under Federal 
Government jurisdiction which will lead to more litigation and 
project delay, more landowners needing permits and higher costs 
of permitting avoidance and mitigation. And these expenses are 
not insignificant. The cost of obtaining a wetland's permit can 
range from tens of thousands of dollars to hundreds of 
thousands of dollars, and that does not include the cost of 
mitigation or project delay which can be very substantial. As 
you can understand, the proposed rule will have real impacts on 
the construction industry and ultimately the cost of developing 
homes and rental apartments.
    To make matters worse, the agencies have not considered the 
totality of the rule's impact or its unintended consequences. 
For instance, if the rule is finalized in its current form, 
builders may, and I underscore ``may,'' may have to obtain 
permits to perform maintenance on certain standard stormwater 
management controls because they will now be federally 
jurisdictional.
    Yet, the agencies have all but ignored these realities in 
their analysis. Equally problematic, the agencies have not 
completed, as has been said today, the report to serve as the 
scientific basis for the rule. Although the EPA Administrator 
recently affirmed the importance of science in guiding the 
Agency's decisionmaking process, the agencies have pushed ahead 
with the rule without the necessary scientific data to support 
their conclusions.
    Defining which waters fall under Federal authority is not 
an easy task. But the Federal Government cannot take the easy 
way out by illegally asserting jurisdiction over everything. If 
agencies are interested in developing a meaningful, balanced 
and supportable role, they must take a more methodical 
approach, one that is based in fact and common sense and is 
true to the Clean Water Act's intent and the Supreme Court 
precedence.
    Thank you, Mr. Chairman.
    Mr. Gibbs. Thank you.
    Mr. Henry, the floor is yours. Welcome.
    Mr. Henry. Thank you, Mr. Chairman, for your time.
    My name is Eric Henry. I am from Burlington, North 
Carolina, where I have lived for 50 years and had a business 
there for over 30 years. The T-shirt and jeans I wear today are 
made and grown in North Carolina from a supply chain I helped 
develop called Cotton of the Carolinas.
    I understand the value and importance of clean water to 
both my business and my community, and I hope you will 
recognize by protecting the resources that are invaluable to a 
business like mine. I would also like to add, I think you would 
get brownie points today by saying that you are connected to a 
farm. My wife and I moved to a farm 3 years ago, so we 
understand the value of clean water.
    Burlington, where I live, used to be a very large textile 
town, home to many companies like Burlington Industry which was 
founded in 1923, one of the largest textile companies in our 
country. I remember growing up, there was a small stream across 
from where I live called Willowbrook Creek, where I lived for 
over 26 years before I finally moved out, or my parents kicked 
me out.
    And I remember going across that stream and seeing blue, 
red, green, dead fish, dead crawfish, times that it would smell 
and this was pollution that was coming from the textile mills 
in our community. That got polluted to the point where it was 
like a toilet bowl that our community could drop their 
commercial and residential waste into.
    Today the Haw River, which is a critical part of a main 
tributary that comes through our county, is part of the 
rebuilding of Alamance County. Old mill communities like 
Saxapahaw and Glencoe, communities that had been dying out, are 
now becoming sought-out places to live, work and play. Much of 
this is due to EPA's clean water regulations. As a small 
business owner who started business over 30 years ago while 
attending North Carolina State University, I witnessed 
firsthand the positive change that comes from bringing clean 
water back to our community.
    My T-shirt and my jeans that I wear today, reflect my 
business philosophy of a triple bottom line: Of people, planet, 
profit. This is particular sure of Cotton of Carolinas. We go 
dirt-to-shirt covering every step of the production process 
from the farm to the factory while supporting 500 North 
Carolina jobs in a completely transparent supply chain. You see 
the product I am wearing and get the benefit of wearing the 
product today instead of the high-priced suits most of you have 
to wear today.
    As a business owner with the daily focus of meeting payroll 
and growing sales, I appreciate the value that my Government 
partner brings to the table, the long-term value of clean water 
and clean air. I believe we have an obligation not just to 
protect the water for our communities we live in today but 
ensure that for future generations that we have access to that 
clean water.
    If protecting future generations truly matters to you, this 
is how we can show it. This is not a unique perspective among 
business owners. As part of the American Sustainable Business 
Council and the polling we have done, 92 percent of small 
business owners support the idea that there should be 
regulations to protect air and water from pollution and toxic 
chemicals, and I would like to point out that 47 percent of 
that sample group were self-identified as Republicans.
    Clear national water protections are critical to making the 
waterways safe for families to swim, fish from and depend on 
for drinking water supply. They will ensure that the playing 
field stays level and that businesses like mine will be playing 
by the same rules as everyone else, that are fair and simple.
    Some people today only see the higher costs of cleaner 
water and the impact to their bottom line. They missed the 
long-term view. What happens when the water is polluted? You 
now have to look at the impact of the Elk River spill in West 
Virginia, and the concerns that that spill could have spread 
downriver into Kentucky. You only need to look at the recent 
spill in my State, downriver where Duke power and the coal ash 
fill, tens of thousands of coal ash fills, were discharged into 
the Dan River.
    The companies responsible for those spills don't benefit 
from them. The Dan River spill is costing Duke Energy millions 
of dollars, and the company responsible for the Elk River 
spill, Freedom Industries, filed for bankruptcies. Companies 
like mine, which rely on a consistent source of clean water, 
surely don't benefit. The people in these communities, the ones 
who can't shower, bathe or wash their clothes, they don't 
benefit.
    Our economy doesn't benefit. The Elk River spill cost West 
Virginia's economy $19 million a day, according to research at 
Marshall University. By contrast, the clean water rules you are 
discussing today would have between $388 million and $514 
million in annual benefits compared to the $162 million to $270 
million in costs. There is a strong economic cost for 
regulations, not against them.
    We need to be the world leader in setting the bar for a 
better world, not just one with a cheaper and more polluted 
future. That is why I am asking for you to support EPA's move 
to protect our clean waters. The people you represent and the 
companies we rely on for jobs and economic growth will thank 
you. Thank you for your time.
    Mr. Gibbs. Thank you.
    Thank you all for coming in.
    My first question to anybody who wants to answer it: I am 
really concerned, I believe when the Clean Water Act was passed 
in 1972, it was set up to be a partnership between the Federal 
Government and the State governments and I think we have come a 
long way, especially in point-source pollution and even 
nonpoint now to protect and enhance our environment and our 
water quality.
    And I am concerned that this proposed rule has potential to 
erode that State-Federal partnership, because, first of all, I 
think we heard today that the State EPAs haven't been involved 
or consulted in the proposal or the drafting of the rule and 
that doesn't sound like too much of a partnership to me.
    Does anybody want to comment about the State's rights of 
this, about how you think the Clean Water Act has been 
functioning and how it can function even better if the State's 
involvement is a partnership? Because I would argue, Mr. 
Pifher, when you talk about the differences out West, a one-
size-fits-all policy in Washington, DC, to me, is a problem.
    We have an umbrella here but what happens if the States 
don't have that, are able to have that input to have that 
enforcement when we have issues that come up and step in? What 
is the long-term implications if this proposed rule goes 
through as it is drafted right now to that partnership?
    Mr. Pifher. Well, if I could start. I think one of the 
implications is that we won't have the degree of flexibility 
that is necessary to implement it on a more regional basis, if 
you will, based on different hydrologic and geologic and 
climatic conditions that we need to be aware of. In addition, 
we have different water rights systems. We have a prior 
appropriations system in the West as compared to the riparian 
system in other portions of the country and that influences, I 
guess, the way we address our waters and deal with issues 
surrounding both discharge of pollutants and what is 
jurisdictional.
    And that partnership does seem to be eroding and we need to 
find a better balance such that everything doesn't need to be 
Federalized in order to be--we have to recognize everything 
doesn't need to be Federalized in order to be protected; that 
State and local governments, both of which implement the Clean 
Water Act and the Safe Drinking Water Act, can do a very good 
job based on the site-specific conditions that they are faced 
with and the cost constraints they are faced with and we have 
to trust them to do that job.
    Mr. Gibbs. Mr. Strong, if you would.
    Mr. Strong. Yes. No, I would just absolutely agree with 
what Mr. Pifher said and add that, in fact, as an example, a 
lot of the success stories in cleaning up water quality in the 
United States, some of which are featured on EPA's Web site, 
include projects that were done in the State of Oklahoma on a 
voluntary basis with our State agencies working in partnership 
with our landowners and producers to accomplish those great 
successes in cleaning up water quality in the State of Oklahoma 
without Clean Water Act regulatory burdens being placed on----
    Mr. Gibbs. I think you touched on a very important point I 
want to make, so anybody who is tuning into this can understand 
this. I said to Assistant Secretary Darcy in a budget hearing 
about a month ago that this proposed rule they are putting out, 
I think about the average citizen out there who has in their 
mind what navigable means, what I think navigable means, too, 
but they are implying then that waters that aren't navigable 
aren't being regulated.
    And we all know this isn't the 1960s anymore, and 
obviously, there have been instances, I know Mr. Henry cited a 
couple. We have had our challenges and there has to be 
enforcement that has to happen, but the States are regulating 
the local governments for that matter, and so all waters are 
being regulated. My concern is, this rule erodes that 
partnership and maybe it doesn't enhance or protect the 
environment or water quality but actually goes backwards. So I 
am very, very concerned about that.
    Mr. Stallman, on the agricultural side, we had the 
Secretary of Agriculture, Tom Vilsack, testify before the Ag 
Committee about 2 months ago, and he said normal farming 
practices are exempt, but then he had to list the 56 that they 
specifically say that are exempt. Now, I think he was implying, 
I didn't get a chance to follow up, that agriculture under 
those 56, if they are working with NRCS, are exempt for 404 
permits.
    But I am not so sure. I would like to see your viewpoint on 
this is, all normal farming practices that the Farm Bureau sees 
are exempt from 401 and other permitting under the Clean Water 
Act?
    Mr. Stallman. I appreciate the opportunity to comment on 
that, including probably some of Mr. Perciasepe's assertions 
about the exemptions for farming. The interpretive rule, you 
have to look behind the curtain and understand what the law is 
and what the rule actually says.
    First, those normal farming and ranching exemptions only 
apply to section 404, not section 402 which is the NPDES 
permitting, which is now required for point sources which is a 
nozzle that applies an agricultural chemical. That is number 
one.
    Number two, it only applies to farming and ranching that 
has been ongoing since 1977. That was the assertion of the 
Government in a court case in 1987, U.S. versus Cumberland 
Farms of Connecticut, and that has been the position of the EPA 
and the Army Corps of Engineers that the normal farming 
exemption does not apply for those that have not been 
continuously in operation since that time. That would be a lot 
of older farmers. I started in 1974.
    The other is, is that by requiring compliance within our CS 
standards, now remember these have been voluntary incentive-
based programs in the past, you are actually morphing them into 
a regulatory program and using those standards as part of a 
permission process to conduct normal farming and ranching 
activities.
    Two other points: I think, I don't remember if it was 
Assistant Secretary Darcy or Mr. Perciasepe indicated that 
those 56 practices were the ones that would help improve water 
quality. Well, let me tell you what was left out, the practices 
that were left out that do contribute to water quality in terms 
of farming: Conservation crop rotation was left out, contour 
farming, cover crops, nutrient management, terracing and the 
massive use of no till and minimum till in agriculture today, 
96.5 million acres for no till cropland, conservation tillage 
excluding no till, 76 million acres, that was excluded from 
these exemptions and I think most farmers today would concur 
that those are normal farming and ranching practices.
    Assistant Secretary Darcy also seemed to indicate you would 
not need a permit for spraying chemicals on farmland. Well, 
that is true as long as none of them are identified as waters 
of the U.S., and that does not mean spraying it in the water. 
That means the ditch that would be identified as a water of the 
U.S. that a molecule of chemical could get on. You still need 
to have a permit.
    Mr. Gibbs. We will get back to the ditches, but my time is 
up right now.
    I want to turn it over to Mr. Bishop for any questions he 
may have.
    Mr. Bishop. Thank you very much, Mr. Chairman.
    I thank the panel for their testimony. I also thank you for 
your patience. It has been a long morning.
    Mr. Henry, let me first thank you for pointing out the 
connection between an environment that is maintained at a 
reasonable, if not the highest possible level in economic 
growth and economic stability. I represent the eastern-most 75 
or 80 miles of Long Island. The eastern-most part of those 75 
or 80 miles has among them the highest property values in the 
country.
    And Mr. Kelly, I will tell you that it has some of the more 
successful and prosperous builders in the country. And those 
property values are what they are, and those builders are as 
successful as they are because of our efforts to protect and 
preserve the environment, and if the Long Island Sound were not 
a swimmable or fishable water, or Peconic Bay or Big Fresh Pond 
or Little Port Pond, we would not have the property values we 
have.
    So I think we all have to agree that we have made great 
strides with respect to regulating our waters and that in 
making those strides they have been supportive of economic 
development as opposed to antithetical to economic development. 
Having said that, I also think that we ought to, to the 
greatest extent possible, try to have a fact-based conversation 
and I think several of your testimony, you each said, many of 
you said that this regulation is in violation of congressional 
intent and in violation of, or in antithetical to Supreme Court 
rulings. That is simply not correct.
    In 1972, when the Clean Water Act was debated, it was 
debated whether or not navigable waters of the United States 
should be defined as navigable, in fact, and that 
interpretation was rejected by our predecessors. It was also 
rejected by the Supreme Court in 1975. In Justice Scalia's 
opinion in Rapanos, he said, and this is in his opinion, I am 
now quoting, ``The Court has twice stated that the meaning of 
navigable waters in the act is broader than the traditional 
understanding of the term and includes something more than 
traditionally navigable waters.'' This is Justice Scalia.
    Justice Kennedy came up with a significant nexus test and 
then directed, along with Justice Roberts, the two agencies 
involved to try to define waters that would meet those tests 
and as Mr. Kelly said, quite correctly, this ain't easy. This 
is really, really hard, and they are trying to do that, and we 
now have a process in which stakeholders can influence the 
outcome of that.
    But here is something that I would hope you can guide me or 
help me with. If this rulemaking fails or if this rulemaking is 
withdrawn or if we pass the Energy and Water Appropriations 
Bill and language that is currently in that bill survives into 
law, that language says that Federal funds may not be used to 
promulgate this rule, we are left with the 2008 guidance.
    Now, I am going to read from something that the American 
Farm Bureau and the National Association of Home Builders 
submitted in 2008, and it says, and I am quoting, ``The 
guidance is causing confusion and added delays in an already 
burdened and strained permit decisionmaking process which 
ultimately will result and is resulting in increased delays and 
cost to the public at large.''
    So my question is, A, does that represent the current 
position of the authors of that letter; and B, is it your 
position that the 2008 guidance is preferable with its Flaws 
and imperfections, as outlined by your two organizations, is it 
preferable to the regulation that is currently being proposed?
    Mr. Stallman. The first answer to that, Mr. Bishop, is that 
we did ask for rulemaking because a guidance is not a 
rulemaking. A guidance does not allow for public notice and 
comment.
    Mr. Bishop. And you asked and they are delivering. They 
don't like the rulemaking but they are, in fact, proposing a 
rulemaking, right?
    Mr. Stallman. They are proposing a rule.
    Mr. Bishop. Yeah.
    Mr. Stallman. Now, getting back to the Supreme Court 
decisions, the one thing that has not been mentioned here this 
morning is that Justice Kennedy also wrote that remote and 
insubstantial waters that eventually may flow into navigable 
waters would not qualify under his definition of significant 
nexus.
    These proposed rules, definitions and descriptions go far 
beyond what he says would not qualify. So I am not sure. I 
think there is a difference of opinion here about whether this 
proposal is within the boundaries, as you call it, of the 
Supreme Court cases.
    Mr. Bishop. OK. But if I may, does the statement that I 
just read, does that represent the current position of the home 
builders? So my question to be specific, is the 2008 position 
of the home builders also the 2014 position of the home 
builders? I am sorry, Farm Bureau.
    Mr. Stallman. I am the Farm Bureau.
    Mr. Bishop. Farm Bureau. I do know the difference, by the 
way.
    Mr. Stallman. We do want a rule that restricts the scope of 
authority under EPA, based on the Supreme Court rulings that 
both have said that their scope is not unlimited.
    Mr. Bishop. OK. I want to let Mr. Kelly answer and I don't 
want to be argumentative, but I want to come back to a point. 
Mr. Kelly.
    Mr. Kelly. The 2008 rule is clearly preferable to the 
proposed rule, and given the choice, we would live with the 
2008 rule.
    Mr. Bishop. With all the imperfections?
    Mr. Kelly. With all its imperfections, and we have 
repeatedly pointed those out, and we have repeatedly asked for 
a new rule. But this rule is simply unacceptable to us.
    Going back to the question you touched on a little while 
ago about the permitting process. The last time we had figures, 
when we studied it, an individual permit took about 788 days to 
acquire and cost north of $280,000 without the mitigation that 
might have gone along with it.
    A streamline permit, based on again, the most recent 
information we have, and this goes back more than a decade, 
cost $28,000 and took 313 days. This just creates massive costs 
and uncertainty for homebuilders.
    I would also suggest that the current proposed rule may 
have the effect of creating a pall on land development in this 
country, and one of the greatest challenges facing the 
homebuilding industry now is the availability of buildable, 
developable land. Because, as you can understand, nothing was 
taken through the pipeline from 2007 to recently. Nothing was 
brought through.
    So our members continue to tell us that they cannot find 
platted approved land to develop on with this rule in place, 
for the segment of our industry that specializes in platting 
and planning land for merchant builders to acquire. They don't 
know what the rules of the game are at this point in time, and 
why would they spend hundreds of thousands of dollars on 
engineering when they have no idea whether their piece of land 
will be subject to these very vague and ambiguous rules?
    Mr. Bishop. My time has expired. Thank you very much.
    Mr. Gibbs. They are going to call votes shortly, and I will 
announce when that happens.
    Mr. Mullin. They haven't called yet. Go ahead.
    Mr. Mullin. Oh, I was going to say, not that I understand 
the bells around here nor does anybody else, but I was getting 
confused there. You have the TV on?
    Once again, I appreciate the panel for being here and Mr. 
Kelly, ironically enough, I have a couple of property 
companies. We are in the process right now of trying to get 
about 20 acres platted, and it is absolutely absurd what we are 
having to go through and the last time I had to go through, and 
the last time I actually purchased nonplatted land, which is 
very scary, was 2007, I believe and back then it was tough. 
Now, I don't even know if--it is a chance to take, and so I do 
understand with what you are saying.
    I want to spend a little time with Mr. Strong. I think that 
is the first time I have ever called you that. It is always 
been J.D., but, hey, official titles, right? I want to spend a 
little bit more time with you on understanding a couple of 
things.
    One, I understand that you have been told, that your agency 
has been told that the rulemaking is going to be handled on a 
case-by-case situation; is that accurate in saying that?
    Mr. Strong. Yes, that is accurate. When we, of course, 
asked some of our regional district offices what the impact of 
this new rule would be on jurisdiction within our State, we 
were told essentially that those types of decisions will 
continue to be made on a case-by-case basis, which sort of begs 
the question whether or not we are clarifying anything for 
everybody if every decision has to be made on a case-by-case 
basis.
    Mr. Mullin. So if you are already being told that, then, 
the uncertainty that runs just in the State, not to mention by 
the time it trickles down to the farmers and to the 
homebuilders and to the other industries that depend on this, 
but when you are getting asked the questions, are you able to 
even make a decision now?
    Mr. Strong. No, we are not. We absolutely are not.
    And you sure can't tell, I think, from reading the rule. 
Certainly, the additional questions and answers from this 
hearing and followup calls that we are having now with the 
agencies are helping to clarify things. But I think, as Mr. 
Pifher said, what is important is what is in writing, and so 
even though we may get some clarification outside of the 
language of the rule through these types of forums, we need 
clarification in writing to give folks the finality that they 
need to be able to plan their businesses, their developments, 
and, as a State, to be able to implement these important 
programs to protect water quality in our States.
    Mr. Mullin. So once it is clarified, how much time are you 
going to need to be able to get your agency spun up to be able 
to comply with the new rule that may or may not exist until you 
get a case-by-case clarification on it?
    Mr. Strong. Well, I think if at the end of the day we got 
enough clarification in the rule that would support the 
statements made in the earlier panel that this really isn't any 
expansion of jurisdiction, then we would expect that it would 
have really sort of no additional impact on the burden on the 
States to implement the law.
    So really, it all sort of depends on what that 
clarification looks like. If it does, in fact, change the scope 
of jurisdiction in any way then it would take us more than 90 
days, I can guarantee you that, to figure out what the impact 
would be on the States and our programs to implement these 
Clean Water Act programs as well as on our regulated 
communities.
    Mr. Mullin. Have you guys already identified some, I guess, 
what is the word I am looking for here? Have you guys 
identified areas to where the State and the Federal agencies 
are conflicting with each other?
    Mr. Strong. Well, I think, certainly, you could easily read 
the rule as it stands right now and identify areas where what 
we thought before was totally subject to the States 
jurisdiction could now be under the Federal jurisdiction which 
essentially removes the flexibility that was discussed earlier 
that is necessary for us to implement these programs in our 
States, in our various States with our very unique hydrology 
that is vastly different from State to State.
    Mr. Mullin. I appreciate your time being here, J.D. It is 
always a pleasure to visit with you.
    Mr. Stallman, I want to go back to you real quick. With the 
Farm Bureau, the point I made earlier about existing farms, 
existing permits, have you guys had any clarification on this 
at all such as what they are referring to?
    Mr. Stallman. No. Not as was referred to by Mr. Perciasepe 
and Assistant Secretary Darcy. What we do know is it has been 
the position of the Corps and the EPA, based on the court case 
in 1987----
    Mr. Mullin. Right.
    Mr. Stallman [continuing]. U.S. versus Cumberland Farms of 
Connecticut, that unless from 1977 on you had maintained a 
continuous farming operation for which you had an exemption 
there under the law that was passed by Congress--unless you 
maintained that continuously, you didn't qualify. That means 
there are no young farmers and ranchers that will be exempt.
    Mr. Mullin. So--and, if you could, just a couple more 
seconds here.
    So the heartbeat of this country being the farming 
community, in my opinion, is that--is threatened here by seeing 
permits that are required to do some of the farming that we 
have to be less available or even nonexisting.
    Do you--are you hearing that from your--from your members 
or is that kind of the assessment you guys are taking on your 
own?
    Mr. Stallman. More and more, as the information of the rule 
has gone out to our members and they understand what--the 
potential impact it could have on their farming operations, we 
are hearing that it will just not work.
    This law was never designed to regulate on a permitting 
basis agriculture. Our land is--our property is measured in 
acres, not in square feet.
    Mr. Mullin. Yes.
    Mr. Stallman. And the timelines involved in agriculture, 
the integration of what we do with whatever Mother Nature gives 
us, you know, we don't have time to get the permits as the 
timelines are indicated it takes to get one, much less the cost 
of getting one.
    I will be honest with you. If my farm is determined to need 
a permit to conduct my normal farming operations that have been 
conducted for over 100 years there, there is not enough profit 
margin for the cost of permits for me to make an economic 
decision to seek a permit and continue farming.
    Mr. Mullin. Thank you.
    Thank you, panel, for being here.
    Thank you, Chairman.
    Mr. Gibbs. We are still good on votes. We have 8 minutes; 
410 people haven't voted yet. So I want to ask another 
question.
    There is a lot of concern--it is really a concern to me 
about this ditch issue and the tributaries. I mean, we had the 
first panel, and it was unclear.
    And when you read through the rule and the pre-am and some 
of the things of the rule, I think you can conclude that--at 
least I do--ditches can be tributaries and tributaries are not 
subject to significant nexus test. Tributary ditches, then, are 
categorically included, and significant nexus does not apply 
under the rule.
    Does anyone want to comment on that? Do you agree? The EPA 
said today that tributaries are included under the rule and 
that ditches can be included and then don't have to meet a 
significant nexus test.
    Am I interpreting that right? Anybody want--Bob, do you 
want to----
    Mr. Stallman. We agree. These are categorical definitions. 
And regardless of the assurances and intent expressed by 
Government officials, the only thing that will make a 
difference in court and litigation is what do the words of the 
rule say.
    We have seen EPA and the Corps throughout 30-plus years of 
litigation seek the very strictest definition that gives them 
the broadest scope of authority.
    And so, when you say bed, bank and ordinary high water 
mark, I can show you several miles of ditches on my farm that 
have those characteristics and, you know, then they become a 
regulated water, and they are not today.
    Mr. Gibbs. Yeah.
    So when I heard the previous panel kind of answer those 
questions we asked about ditches, they kind of inferred that 
most ditches would not be included, and I think they even 
inferred that local governments' road ditches would not be a 
problem. It would not take a permit if they were going to do 
any cleaning of the ditches, because I specifically asked that 
question.
    So you are shaking your head, Mr. Williams or Mr. Pifher.
    Mr. Williams. Well, just real quickly, I heard from the 
previous panel that roadside ditches generally drain uplands 
and don't go anywhere.
    In my county, when we collect the water, we have to take it 
to an outlet, and that is generally a tributary or some 
adequate outlet. That, by definition--is their definition, is a 
roadside ditch.
    Mr. Gibbs. So the followup question, then, if it is ruled--
if they rule it or it happens through litigation and you have 
to get a 404 permit to clean your roadside ditches, then you, 
as a local government entity, are--I would think would be 
liable for not keeping the integrity of the ditch and--but 
maybe you couldn't get the permit fast enough.
    Can you see a scenario like that occurring?
    Mr. Williams. Very much so. It is time and money. Both of 
those will be severely impacted. I agree with you.
    Mr. Pifher. I would just add that most ditches, and 
certainly in Colorado and most areas in the West, at least the 
arid areas, take water off traditional navigable waters, I 
mean, by virtue of their water rights decrees.
    And then oftentimes they have an obligation even to return 
the water that they don't consumptively beneficially use to a 
water of the United States; and, so, therefore, they are 
jurisdictional.
    And most of them have historically been jurisdictional. So, 
yeah, you can't generalize and say most ditches are excluded.
    Mr. Gibbs. Well, me, as an elected representative, I 
interpret this as either their intent is a good intent or they 
have a hidden agenda and are not being truthful. I just don't 
know.
    I am really, really concerned about this, because you guys 
made some good comments and good statements here and some of 
their statements in the previous panel were, ``I don't think 
so,'' ``I am not sure.''
    The vagueness and the ambiguousness of the whole issue is 
really concerning and I think it does open it up to litigation 
at the very least.
    Would everybody concur, that we have really got an issue 
here in the future if it goes through this way?
    Mr. Henry. Mr. Chairman, can I make a comment, please?
    Mr. Gibbs. Yes.
    Mr. Henry. You know, we are talking about ditches. We are 
talking about cost. We are talking about the lifeblood of 
societies, the water that goes through that. What I look to the 
Federal Government for is that long-term vision of the 
protection of that water.
    And I think, if you step away and look at the global 
implications of water and society, we have got some serious 
problems ahead of us. So we really have to look--you know, step 
back.
    I mean, this is a very serious problem we are dealing with, 
and I think we are just--we are getting into the trenches and 
we are missing the big picture. I mean, you know, destroying 
our water quality affects the quality of our life. Look what is 
happening to China right now.
    Mr. Gibbs. There are no regulations over there. That is 
part of the issue. But I would think that--go ahead, Mr. 
Stallman. You can comment.
    Mr. Stallman. Well, let me respond to that. Yeah. You know, 
that is the big-picture stuff, but let me talk about how it 
works on the farm.
    Prescribed grazing is one of the so-called exempt practices 
for those few farmers that will qualify for it. So the 
implication is, if you do not qualify for it, then prescribed 
grazing is not an exempt normal farming and ranching activity.
    And, therefore, if you are doing prescribed grazing in a 
ditch--and you have to understand my country is kind of flat. 
We have a lot of ditches where we let cows graze to keep them 
cleaned out where they actually will carry water.
    If that requires me to fence off those ditches to keep them 
from grazing or to get a permit to allow those cows to graze 
there, you know, once again, I will shut it down because the 
cost--the economics will not work.
    So that is where it gets down to the farm.
    Mr. Gibbs. Yeah.
    And, Mr. Henry, I don't think anybody on this panel or 
anybody on this dais doesn't want to do everything they can to 
make sure that our water quality is improved and we enhance it 
and protect it, but we can also regulate ourselves to death and 
actually go backwards.
    And the one example I have talked about previous to the 
hearings with the EPA is my personal example as being a former 
hog farmer.
    The years the hog market went south, we tried to stay in 
business, pay the employees, pay the bills, and the years we 
could make some money, then we looked at doing things on the 
farm to improve grass waterways and do things.
    But if we put so much burden and regulation on people 
like--farmers like Mr. Stallman, the environment is going to 
suffer. So we have to be reasonable about this. We should never 
forget that the Clean Water Act was set up to be a partnership 
between the States and the Feds.
    And this concern I have with this rule moving forward is 
that it is eroding that partnership and we will have 
degradation of our water quality in the United States and, 
also, our economy and jobs.
    So I need to conclude because we have to go vote. I don't 
think there is any reason to come back. I think we have pretty 
much got the message and everybody hit their point.
    And I really do want to thank you for coming in and being 
here for several hours.
    So this concludes the hearing. Thank you very much.
    [Whereupon, at 1:26 p.m. the subcommittee was adjourned.]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
   
  
</pre></body></html>
